Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2004 - September 30, 2004
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and
discussed in this semiannual report.


CHALLENGES                 BRIEF DESCRIPTION OF CHALLENGE                                PAGE

PROCUREMENT                Simplified processes have reduced order and delivery           2 – 5,
ACTIVITIES                 time, yet competitive principles are not always followed      18 – 25
                           and opportunities may be missed for less costly services
                           and products.

CONTRACT                   GSA’s multibillion dollar acquisition programs have           5 –8
MANAGEMENT                 expanded rapidly in terms of sales, variety, and complexity
                           of the procurements performed. A growing list of warning
                           signs throughout the acquisition process suggests that
                           the technical and management skills needed by the
                           procurement workforce to operate in this more
                           sophisticated arena are not keeping pace with these
                           new demands.

INFORMATION                Technology applications have increased exponentially           8 – 12
TECHNOLOGY                 as “E-Gov” is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

MANAGEMENT                 Management controls have been streamlined, resulting          12 – 16
CONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed.

PROTECTION OF              GSA is responsible for protecting the life and safety           17
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

AGING FEDERAL              GSA is being challenged to provide quality space to           No
BUILDINGS                  Federal agencies using an aging, deteriorating inventory      Reports
                           of buildings and facing critical budgetary limitations in     This
                           its modernization program.                                    Period

HUMAN CAPITAL              GSA’s corporate knowledge is eroding and efforts to           No
                           obtain requisite skills for the future are impeded. Better    Reports
                           recruitment and training programs are needed to               This
                           develop the 21st century workforce.                           Period
              Foreword



This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG) for
the six-month reporting period that ended September 30, 2004.

During the past six months, we continued to work with GSA to identify business
management and operational improvements in the Agency’s programs and
activities. We issued reports focusing on the major challenges facing the
Agency, particularly in the areas of procurement, contract management,
information technology, management controls, and the protection of Federal
facilities and personnel. In our previous semiannual report, we highlighted our
review of contracting practices at the Federal Technology Service’s (FTS) Client
Support Centers (CSC) in three GSA regions. Due to the improper contracting
practices we identified in these regions, the Administrator and the FTS
Commissioner requested that we expand our audit to cover CSC activities in the
other eight GSA regions. In addition, the Senate Finance Committee and the
Senate Armed Services Committee expressed interest in our expanded audit
efforts. We have 11 CSC reviews currently underway examining 280 task orders
for Fiscal Years (FY) 2003 and 2004 valued at over $4 billion. We anticipate
issuing our final reports during the first quarter of FY 2005.

During this period, we began work to increase contract preaward audit coverage
of the procurement programs of FTS and the Federal Supply Service (FSS).
There are currently in excess of 10,000 vendors doing over $30 billion in new
business with GSA. With support from the Office of Management and Budget,
and in cooperation with FTS and FSS, we laid the groundwork for increasing the
number of preaward and contractor performance reviews in these rapidly
expanding procurement programs.

We identified over $81 million in financial recommendations on how funds could
be put to better use. We achieved over $380 million in management decisions
agreeing with audit recommendations, civil settlements, and direct recoveries.
We made 338 referrals for criminal prosecution, civil litigation, and administrative
action. Criminal cases originating from OIG referrals resulted in 20 successful
prosecutions.

I want to express my appreciation to Congress, as well as to the senior
management of the Agency, for their support over this past year to the mission
of this Office. I also want to express my appreciation for the accomplishments
of all OIG employees and commend them for their continued professionalism,
dedication, and willingness to accept new challenges.




Daniel R. Levinson
Inspector General
October 29, 2004
          Table of Contents



                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2004 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .17

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .18

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .28

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .32

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .34

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .41

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .44

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .52

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .63

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .65

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .66

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral


                                                                     Office of Inspector General iii
                      Summary of OIG Performance



OIG Accomplishments    April 1, 2004 – September 30, 2004

                       Total financial recommendations                            $119,265,244

                       These include:

                       • Recommendations that funds be put to better use           $81,678,428

                       • Questioned costs                                          $37,586,816

                       Audit reports issued                                             69

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                            338

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                 $380,892,606

                       Indictments and informations on criminal referrals               22

                       Cases accepted for criminal prosecution                          37

                       Cases accepted for civil action                                  12

                       Successful criminal prosecutions                                 20

                       Civil settlements                                                 7

                       Contractors/individuals debarred                                 23

                       Contractors/individuals suspended                                48

                       Employee actions taken on administrative referrals
                       involving GSA employees                                          13




                                                                       Office of Inspector General v
                                   Fiscal Year 2004 Results



                                 During Fiscal Year (FY) 2004, OIG activities resulted in:

                                 • Over $447 million in recommendations that funds be put to better use and
                                   in questioned costs. If adopted, these recommendations ultimately result
                                   in savings for the taxpayer.

                                 • 160 audit reports that assisted management in making sound decisions
                                   regarding Agency operations.

                                 • Over $438 million in management decisions agreeing with audit
                                   recommendations, civil settlements, and court-ordered and investigative
                                   recoveries.

                                 • 231 new investigations opened and 190 cases closed.

                                 • 68 case referrals (194 subjects) accepted for criminal prosecution and
                                   20 case referrals (35 subjects) accepted for civil litigation.

                                 • 121 criminal indictments/informations and 97 successful prosecutions on
                                   criminal matters referred.

                                 • 11 civil settlements.

                                 • 42 employee actions taken on administrative referrals involving GSA
                                   employees.

                                 • 105 contractor/individual suspensions and 44 contractor/individual
                                   debarments.

                                 • 291 legislative matters and 30 regulations and directives reviewed.

                                 • 2,051 Hotline contacts received of which 248 warranted further GSA
                                   action.




vi Semiannual Report to the Congress
                             Executive Summary



                        During this period, the OIG continued to direct its audit, investigative, and
                        evaluative resources to address what we believe to be the major
                        management challenges facing the Agency. We provided a wide variety of
                        services, including program evaluations; contract and financial auditing;
                        management control reviews; and investigative coverage and litigation
                        support in contract claims, civil fraud and enforcement actions, and criminal
                        prosecutions. We also continued to provide professional assistance services
                        and reviews of proposed legislation and regulations.

                        Management Challenges
                        We have highlighted a number of reviews that address major management
                        issues facing GSA. We continued our work in addressing these challenges,
                        making recommendations, and working with management to improve
                        Agency operations. During this period, our efforts included work focusing on
                        procurement activities, contract management, information technology,
                        management controls, and the protection of Federal facilities and personnel.
                        While we did not issue any reports this period on the two other
                        challenges—aging Federal buildings and human capital—we have reviews in
                        process that will soon be complete, and we plan to start work on several
                        other projects during FY 2005.

                        Procurement Activities
                        In our previous semiannual report, we highlighted problems with contracting
                        practices at the Federal Technology Service’s (FTS) Client Support Centers
                        (CSC) in three GSA regions. Our audit identified numerous improper task
                        orders and contract awards. In making these awards, CSC officials
                        breached government procurement laws and regulations and, on a number
                        of occasions, processed procurement transactions for goods and services
                        through the Information Technology Fund that were well outside the fund’s
 Improper contracting
                        legislatively authorized purposes. As a result of our work, the Administrator
      practices         and the FTS Commissioner undertook several corrective actions including
                        the GSA “Get It Right” program, launched in cooperation with the
                        Department of Defense’s Director of Defense Procurement and Acquisition
                        Policy. This program was designed to ensure the proper use of contract
                        vehicles and services and to ensure that clients and taxpayers receive the
                        best value. The Administrator and the FTS Commissioner also requested
                        that we expand our audit to cover the other eight GSA regions. In addition,
                        the Senate Finance Committee and the Senate Armed Services Committee
                        expressed interest in our expanded audit efforts. We have 11 CSC reviews
                        currently underway looking at 280 task orders from FY 2003 and
                        FY 2004 valued at over $4 billion. We anticipate issuing our final reports
                        during the first quarter of FY 2005. A separate review of GSA’s “Get It Right”
                        initiative implementation is also planned for FY 2005 (page 2).

                        The Special Order Program (SOP) is a division of the Federal Supply
Special Order Program   Service’s (FSS) Office of Global Supply business line. The SOP seeks to
                        obtain the best value for its customers by leveraging the government’s


                                                                       Office of Inspector General vii
                                         Executive Summary



                                  requirements in the acquisition process and using commercial sources for
                                  fulfilling customer orders. The program also offers customers administrative
                                  savings by centralizing the ordering, invoicing, and payment process through
                                  FSS’ integrated systems. We found that some Multiple Award Schedule
                                  (MAS) contracts have National Stock Numbers (NSNs) assigned directly to
                                  the MAS contracts. When using these contracts, agencies are able to cite
                                  an NSN when placing a schedule order. We believe these practices provide
                                  an unfair advantage to some companies and allow for the possible non-
                                  compliance with procurement regulations. We also concluded from our
                                  review that FSS can streamline order processing procedures to increase
                                  efficiency and decrease costs (page 4).

                                  Contract Management
                                  In our previous semiannual report, we reviewed GSA’s projection of costs
                                  and savings used to justify the decision to relocate and modernize the
                                  Western Distribution Center. FSS had estimated the total cost for the
                                  relocation and modernization at $22.7 million based on a feasibility study.
      Relocation and              We believe the new distribution system should improve productivity and
    modernization study           provide valuable data collection and online analysis capabilities. However,
                                  the $39 million final cost far exceeded FSS’ anticipated cost, coming in at
                                  72 percent over estimate. We concluded that FSS used insufficient and
                                  inaccurate information for the project’s plan and design phases, and it did
                                  not analyze the feasibility study and technical proposal to ensure that cost
                                  estimates were accurate and the technical systems would be compatible.
                                  FSS needs to prevent these problems on future projects (page 5).

                                  We performed a review of GSA’s Federal Wireless Telecommunications
                                  Services Contract to evaluate GSA’s management of the efficiency and costs
                                  of wireless telecommunication services. Under the Federal Wireless
                                  Contract, GSA’s overall cost equates to $.60 per minute of usage. We found
                                  that GSA can reduce and better manage its wireless costs through billing
                                  analysis. One private research group estimates that organizations can save
                                  7 to 12 percent of their annual wireless costs by correcting billing errors.
Federal Wireless Contract
                                  Based on GSA’s current expenditure of $4 million annually on wireless
                                  phone bills under its Federal Wireless Telecommunications Service
                                  agreement, GSA could save between $280,000 and $480,000 annually by
                                  examining billings for errors. We recommended that the Chief Information
                                  Officer (CIO) embrace the concept of total cost of ownership where an
                                  organization constantly audits billings and usage to reduce cost per minute
                                  to the lowest possible level (page 6).

                                  At the request of the previous Regional Administrator for the Northeast and
                                  Caribbean Region, we analyzed the problems experienced in the
 Courthouse construction          construction of the new Brooklyn Courthouse. Our report concluded that the
                                  convergence of restrictive funding, an extremely active construction market,
         project                  scope reductions resulting from overly optimistic estimates, manpower
                                  shortages, and the prime contractor’s slow spiral toward bankruptcy


viii Semiannual Report to the Congress
                           Executive Summary



                      contributed to this “perfect storm” of construction projects that forced the
                      delay in constructing the new courthouse (page 7).

                      Information Technology
                      The Federal Information Security Management Act (FISMA) requires Federal
                      agencies to develop, document, and implement an agency-wide information
                      security program to secure Federal information systems. We found that
                      GSA’s Information Technology Security Program, managed by the CIO, has
                      improved over the past year, but challenges remain. We recommended that
IT Security Program   the CIO take action to: ensure that all systems across GSA are included in
                      GSA’s Information Technology Security Program inventory; reduce risks from
                      granting contractors access to GSA systems and data prior to the completion
                      of required background checks; incorporate controls to ensure operations of
                      contractors supporting systems and data are adequately monitored;
                      consistently implement the system Certification and Accreditation process;
                      and effectively use risk mitigation to track and resolve security weaknesses
                      (page 9).

                      FedBizOpps is a GSA-managed system that replaced Commerce Business
                      Daily and its Internet portal, CBDNet, as the designated single point-of-entry
                      for government contract opportunities over $25,000. To gather information
                      on user satisfaction and to assess the effectiveness of FedBizOpps, we
                      conducted the first online survey open to the system’s 388,000 users. The
   FedBizOpps         vendors surveyed commented that improvements are needed in search
                      capabilities and graphical user interface. Increased vendor involvement is
                      also needed in the decision-making process regarding functionality and
                      enhancements in order to expand the number of vendors offering products
                      and services. In addition, we identified security risks to the systems in that
                      background security checks have not been completed for contractors having
                      access to the system and data (page 10).

                      In August 2001, the Office of Management and Budget (OMB) launched an
                      E-Government (E-Gov) task force to evaluate ideas for electronically
                      improving government operations and eliminating redundant systems.
                      E-Authentication, one of the E-Gov initiatives, is intended to help minimize
 E-Authentication     duplicative and costly authentication solutions for electronic transactions
                      across government and provide increased security, privacy management,
                      and standards-based interoperability. Our September 30, 2004, report
                      identified areas where improvements are needed with the initiative and
                      recommended that FTS, the designated process owner of E-Authentication,
                      take specific actions to ensure success with this important undertaking
                      (page 11).

                      OMB assigned the development of Federal Asset Sales (FAS), another
                      E-Gov initiative, to GSA in October 2001. The task force envisioned FAS
Federal Asset Sales   being developed in 12 to 18 months at a cost of $5 million. GSA’s mission
                      was to develop a secure, effective, and efficient one-stop online environment



                                                                       Office of Inspector General ix
                                      Executive Summary



                                 across Federal agencies that would provide clear information and a
                                 marketplace for excess Federal real and personal property and financial
                                 assets. However, after nearly 2½ years and over $7 million spent, many
                                 development steps and challenges still remain (page 12).

                                 Management Controls
                                 This period, we completed a follow-up review to determine how
                                 management controls have improved over GSA’s Awards Program since our
                                 August 5, 2002, report. Although GSA management has taken many actions
                                 to improve the program, we found that several of the previously reported
     Awards program              problems still exist. We found that some managers had in effect delegated
                                 their award authority to non-supervisory administrative staff by sharing their
                                 FedDesk user name and password. In addition, we found that once an
                                 authorized approving official (or someone with their login data) gains access
                                 to the Awards Program, the system only requires input of a Social Security
                                 number, but no additional password. This control breakdown could result in
                                 transactions that cannot be traced to the actual person who entered them.
                                 We encountered difficulty in obtaining award justification documentation for a
                                 significant part of our sample because the FedDesk system only allowed
                                 access to awards entered in the prior 12-month period (page 13).

                                 GSA Fleet established the Accident Management Center (AMC) in 2001 to
                                 ensure greater consistency in processing accident cases, provide better
                                 service to its customers, and more effectively control accident related costs.
                                 Our review of the AMC operations disclosed that it was, for the most part,
  Accident Management            achieving its objectives, and that customer agencies were pleased with its
         Center                  services. We were, however, concerned with the procedures the AMC
                                 followed for collecting accident damage claims from the private sector,
                                 referred to as third party claims. We found that AMC’s accident damage
                                 collection process sometimes resulted in the pursuit of unsupported claims,
                                 which could adversely affect third party individuals’ credit histories. We
                                 concluded that pressure to quickly close files in some cases led to incorrect
                                 conclusions based on minimal evidence. GSA has agreed with our
                                 recommendations to improve these procedures (page 14).

                                 Each year, GSA Fleet (Fleet) purchases approximately 40,000 vehicles and
                                 sells 35,000. The vehicles that Fleet sells are made available for the public
                                 to purchase at Fleet auctions, which are held at locations nationwide
                                 throughout most of the year. The objective of our audit was to determine
                                 whether management controls over proceeds derived from vehicle sales,
         GSA Fleet
                                 which can exceed $200 million annually, are received, deposited, and
                                 accounted for in a timely manner. We found that GSA has effectively utilized
                                 auction house contracts to improve the vehicle disposal process and current
                                 controls are sufficient to ensure accurate accounting for these sales.
                                 However, Fleet does not always enforce the contract provision requiring
                                 prompt transfer of sale proceeds from the auction house to GSA.
                                 Consequently, auction houses have submitted late payments, and Fleet has
                                 foregone interest on payments (page 15).

x Semiannual Report to the Congress
                               Executive Summary



                          The Agency Liaison Division (ALD) is one of three organizations within GSA
                          that provides external services to small agencies, boards and Presidential
                          and congressional commissions on a reimbursable basis. In FY 2003, ALD
                          provided a variety of administrative and management support services,
Agency Liaison Division   primarily human resource, budget, and coordination activities to 29 clients.
                          Although ALD is supposed to fully recover its costs, we found that ALD’s
                          customer pricing methodology did not always reflect actual cost data, was
                          inconsistent in its allocation methods, and oftentimes was adjusted to
                          accommodate a client’s inability to pay for services. In addition, ALD lacks
                          formal performance measures necessary to evaluate the effectiveness of the
                          program in meeting its mission, objectives, and fiscal responsibility, and to
                          adjust to a changing environment (page 16).

                          Protection of Federal Facilities and Personnel
                          In recent semiannual reports, we have highlighted our concerns that
                          significant numbers of GSA contractor employees did not have proper
                          security clearances. In our review of GSA’s Information Technology Security
                          Program, we found that there is a significant backlog of several hundred
                          background checks in process across the Agency. In another review, we
                          noted that background checks had not been completed for FedBizOpps
                          contractors. Giving contractors access to GSA systems without completing
                          these investigations increases the possibility of vulnerabilities and security
                          risks for the Agency’s systems (page 17).

                          Promoting and Protecting Integrity
                          In our ongoing efforts to promote and protect the integrity of GSA’s programs
                          and operations, we aggressively conduct investigations and pursue the
                          prosecution of individuals and companies committing criminal and civil fraud
                          and other offenses that impact GSA programs. A number of these
                          investigations have led to enforcement actions during this semiannual
                          period, including:

                          • The government settled a civil fraud case with MCI/WorldCom Corporation
                            for $27.6 million based on its overcharging the government on the FTS
                            2001 contract (page 18).

                          • Snap-on Industrial agreed to pay the government $10 million for violating
                            the terms of the price reduction clause and billings provisions under both
                            its current MAS contract and predecessor contract for tools (page 18).

                          • The government settled a civil fraud case with Storage Engine and its
                            former president for $225,000 based on fraudulently overcharging the
                            government in a kickback scheme (page 19).

                          • Ashland Chemical Company d/b/a Drew Industrial agreed to pay the
                            government $350,000 to resolve a False Claims Act case for selling
                            unauthorized products to the government at inflated prices (page 19).


                                                                          Office of Inspector General xi
                                        Executive Summary



                                  • Dawson Building Contractors, Inc. agreed to pay $300,000 to resolve its
                                    potential False Claims Act liability in connection with its work on
                                    renovations to the U.S. Courthouse in Des Moines, Iowa (page 20).

                                  • As part of an ongoing probe into corruption involving the GSA Public
                                    Buildings Service, three Federal employees were found guilty of illegally
                                    awarding contracts for various building services and supplies involving a
                                    Federal courthouse in Chicago in exchange for kickbacks and bribes
                                    (page 20).

                                  • A former Oklahoma school district superintendent pled guilty to theft of
                                    government property after fraudulently acquiring four mobile homes,
                                    valued at $42,924, under GSA’s surplus property program (page 20).

                                  • An individual was sentenced to six months home detention, five years
                                    probation, 250 hours community service, and ordered to pay $15,233 in
                                    restitution for fraudulently obtaining Federal surplus property for his
                                    personal use, through which he financially profited (page 21).

                                  • An investigation revealed that a former project manager of a
                                    subcontractor inflated bids for work on the Brooklyn Federal Courthouse.
                                    It was found that the manager accepted cash payoffs from a second-tier
                                    subcontractor on various Federal, as well as, commercial and city jobs; he
                                    pled guilty to mail fraud (page 21).

                                  • The OIG’s Office of Investigations is a principal member of a task force to
                                    investigate telecommunications fraud primarily involving Federal facilities
                                    within the New York metropolitan area. During this reporting period, an
                                    individual was sentenced to 46 months incarceration, three years
                                    supervisory release, and ordered to pay restitution in the amount of
                                    $608,159 for engaging in calling card fraud by “shoulder surfing”
                                    (page 21).

                                  • The government settled a dispute regarding disposition of proceeds and
                                    entitlement to costs arising out of an improper settlement of a civil False
                                    Claims Act suit, brought by a whistleblower as a qui tam action (page 22).

                                  • An individual was sentenced to 16 months imprisonment for theft of a
                                    government vehicle, 12 months imprisonment for impersonating a
                                    government official (both of which are to be served concurrently), three
                                    years supervised release, and ordered to pay a fine (page 22).

                                  • An ongoing proactive investigation of the misuse of GSA-issued fleet
                                    charge cards resulted in the sentencing of three individuals during this
                                    reporting period with restitution totaling over $11,000 (page 22).




xii Semiannual Report to the Congress
     Executive Summary



• An ongoing investigation of fleet cards by a Federal and state task force
  had previously discovered that ten men were using federally issued fuel
  charge cards to fraudulently purchase large amounts of fuel in South
  Florida. Two of the ten men were sentenced during this reporting period.
  One individual was sentenced to serve five months in prison, five months
  home confinement, three years probation, and ordered to pay $2,419 in
  restitution. The other individual was sentenced to one year probation and
  ordered to pay restitution (page 23).

• A former GSA employee is scheduled to be sentenced for using her
  government purchase card to make personal purchases totaling in excess
  of $34,000 (page 23).

• An investigation confirmed that an individual was driving his personal
  vehicle with a stolen U.S. Government license plate. Upon arrest, he
  presented a forged New York State National Guard identification card.
  The individual pled guilty to forgery and was sentenced to one year
  probation and ordered to perform community service (page 24).

Summary of Results
The OIG made over $81 million in financial recommendations to better use
government funds; made 338 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed 174 legislative and regulatory actions;
and received 1,169 Hotline contacts. This period, we achieved savings from
management decisions on financial recommendations, civil settlements, and
investigative recoveries totaling over $380 million. (See page v for a
summary of this period’s performance.)




                                               Office of Inspector General xiii
                                    OIG Organization Chart



                                           Inspector General
                                           Daniel R. Levinson      Office of Internal Evaluation
    Office of Counsel to the IG
         Kathleen S. Tighe                                              James A. Amoroso
         Counsel to the IG              Deputy Inspector General              Director
                                             Joel S. Gallay



Office of Administration                      Office of Audits            Office of Investigations
    John C. Lebo, Jr.                        Eugene L. Waszily             James E. Henderson
 AIG for Administration                       AIG for Auditing             AIG for Investigations

       Human                                     Audit                           Field Support
      Resources                               Operations &
       Division                               Administration
                                                                                 Zone Offices
                                                                               Washington, D.C.
      Information                               Information                       New York
      Technology                                Technology                        Chicago
        Division                                Audit Office                     Fort Worth
                                                                                San Francisco

     Administrative                                Real
      & Financial                                Property                             Sub-Offices
     Management                                 Audit Office                          Philadelphia
       Division                                                                         Boston
                                              Finance & Staff                         Kansas City
                                                                                        Atlanta
                                                  Offices
                                                                                      Auburn (WA)
                                                Audit Office

                                                Acquisition
                                                Audit Office

                                                Field Audit
                                                  Offices
                                              Washington, D.C.
                                                  Boston
                                                 New York
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco

                                                      Sub-Office
                                                     Auburn (WA)




xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and analysts
                        who provide comprehensive coverage of GSA operations through program
                        performance reviews, assessment of management controls, and financial
                        and compliance audits. The office also conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office additionally
                        provides research, benchmarking, and other services to assist Agency
                        managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper activities
                        involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review and Congressional liaison functions.

                      • The Office of Internal Evaluation, a quality control staff that provides
                        coverage of OIG operations primarily through management assessments
                        and conducts internal investigations and reviews at the direction of the
                        Inspector General.

                      • The Office of Administration, a professional staff which provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, D.C. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of September 30, 2004, our on-board strength was 281 employees. The
                      OIG’s Fiscal Year (FY) 2004 budget was $38.9 million.




                                                                      Office of Inspector General 1
                                      Management Challenges



                                 Each year since 1998, we have identified and shared with Congress and
                                 senior GSA management what we believe to be the major challenges facing
                                 the Agency. (The current list is summarized on the front inside cover.) This
                                 period we continued our work in addressing these challenges, making
                                 recommendations, and working with management to improve Agency
                                 operations. The following sections highlight our activities in these areas.

                                 Procurement Activities
                                 GSA provides Federal agencies with products and services valued in the
                                 billions of dollars through various types of contracts. We conduct reviews of
                                 these activities to ensure that the taxpayers’ interests are protected.

                                 FTS Contracting Practices and Agency Improvement Actions
                                 In our previous semiannual report, we highlighted problems with contracting
                                 practices at the Federal Technology Service’s (FTS) Client Support Centers
                                 (CSC) in three GSA regions. Client Support Centers help customer
                                 agencies define their information technology (IT) requirements, identify
       Audit finds               sources of products or services, prepare contract task orders, and assist in
                                 managing projects, depending upon the level of support needed by the
       widespread                customer. Our audit identified numerous improper task orders and contract
        improper                 awards. In making these awards, CSC officials breached government
  contracting in FTS             procurement laws and regulations and, on a number of occasions, used the
                                 IT Fund to process procurement transactions for goods and services such as
    Client Support               floating marine barriers, construction of classrooms and office buildings, and
   Centers. Agency               pathogen detection devices and services—items that were well outside the
  initiates corrective           fund’s legislatively authorized purposes. Inappropriate contracting practices
                                 included: improper sole source awards, misuse of small business contracts,
         action.                 allowing work outside the contract scope, improper order modifications,
                                 frequent inappropriate use of time and materials task orders, and not
                                 enforcing contract provisions.

                                 The FTS Commissioner concurred with our report recommendations and
                                 stated that FTS had begun to implement a series of actions and initiatives to
                                 improve acquisition quality and integrity across the organization. She also
                                 stated that GSA and FTS management were working together to review the
                                 CSC operations, adjust goals, and take strong actions to remedy problems.
                                 In a series of policy letters, memoranda, and guidance issued over the
                                 course of the past ten months, the Commissioner directed the CSCs to
                                 follow a number of improvement actions in response to our audit findings.
                                 These actions included ensuring that for orders exceeding $100,000, the
                                 contracting officer receives at least three bids; requiring regional legal
                                 counsel review of all task orders exceeding $5 million; use of acquisition
                                 checklists to ensure all appropriate steps in the procurement process are
                                 completed; developing a management plan for each CSC that provides for
                                 performing self-assessments of CSC operations and task orders to ensure
                                 controls are in place; and performing triannual FTS headquarters
                                 procurement management reviews of each CSC. In addition, FTS has


2 Semiannual Report to the Congress
                         Management Challenges



                        Procurement Activities (continued)

                        contracted for independent assessments of the organizational management
                        and control practices of the CSCs, and the adequacy of existing
                        performance measures, in response to our prior audit recommendations.

                        Because of the significance of the audit findings, GSA’s Administrator and
                        the FTS Commissioner requested that we audit CSC activities in the other
GSA Administrator       eight regions throughout the nation. To provide feedback on the
 and congressional      improvement actions FTS had underway, the Commissioner asked us to
committees request      include in these reviews tests of more recent task orders awarded in the
                        second quarter of FY 2004 in order to evaluate the implementation status of
expanded audits on      enhanced management controls.
     improper
                        Our CSC audit also drew the attention of Congress. The Chairman of the
    contracting
                        Senate Finance Committee asked that we expand our review of CSC
     practices.         operations and that we provide continuing oversight to ensure that
                        deficiencies identified are addressed appropriately. He also requested
                        reports on the progress made, including specifics of the actual, tangible
                        accomplishments.

                        In the spring of 2004, the Senate Armed Services Committee expressed its
                        concerns regarding procurement shortcomings by proposing language in the
                        FY 2005 Defense Authorization Bill severely restricting the Department of
                        Defense’s (DoD) use of FTS CSC procurement services unless the DoD
GSA launches “Get       Inspector General, in consultation with the GSA Inspector General, could
it Right” initiative.   provide assurance to the Secretary of Defense and the GSA Administrator
                        that adequate internal controls have been established within the CSC
                        program and are working. The bill is awaiting the President’s signature. We
                        are working with the DoD OIG and FTS officials to plan an audit of CSC
                        internal controls.

                        In July 2004, the Administrator, in cooperation with DoD’s Director of
                        Defense Procurement and Acquisition Policy, launched the “Get it Right”
                        initiative to ensure the proper use of contract vehicles and services and to
    Contracting         ensure that clients and taxpayers receive the best value. This initiative
   practices at all     includes educating and training acquisition employees, aligning performance
                        measures, publishing new contracting regulations and procedures, and
 11 Client Support      validating the proper use of GSA contract vehicles and services.
Centers nationwide,
      including         We have 11 CSC reviews currently underway, and have reviewed nearly
                        200 task orders from FY 2003 valued at over $3 billion, plus over 80 task
 $4.2 billion in task   order awards or major modifications, valued at over $1.2 billion, that were
   orders, under        completed during the three-month period from March through May 2004.
       review.          The task orders under review are a risk-based judgmental sample of orders
                        exceeding $100,000, and do not represent a statistical sample. We
                        anticipate issuing our final reports during the first quarter of FY 2005.



                                                                       Office of Inspector General 3
                                      Management Challenges



                                 Procurement Activities (continued)

                                 We have begun planning our next series of reviews that will assess the
                                 implementation status of the FTS and “Get It Right” initiatives as well as
                                 address other congressional concerns. We will be working closely with the
                                 DoD Office of Inspector General to ensure coordinated, full-scope testing of
                                 the controls and transactions selected for review.

                                 Review of the Special Order Program
                                 The Special Order Program (SOP) is a division of the Federal Supply
                                 Service’s (FSS) Office of Global Supply business line. The SOP seeks to
                                 obtain the best value for its customers by leveraging the government’s
                                 requirements in the acquisition process and using commercial sources for
                                 fulfilling customer orders. The program also offers customers administrative
                                 savings by centralizing the ordering, invoicing, and payment process through
                                 FSS’ integrated systems. SOP sales nationwide were $1.9 billion in
                                 FY 2004.

                                 We concluded from our review of the SOP in the Heartland Region that FSS
                                 can streamline some order processing procedures to increase efficiency and
                                 decrease costs.

                                 FSS provides an automated order processing system for customer agencies
  National Stock                 to use, but order rejections can be caused by FSS system restrictions or by
                                 simple errors in an order, such as incorrect quantity or a typographical
 Numbers linked to               mistake. Corrections to rejected orders are then handwritten by FSS
 MAS contracts give              employees and sent to a contractor for reentry into the system. We believe
 unfair competitive              that the processing of reentry orders could be improved by allowing FSS
                                 employees to make corrections online. The reentry order contract for
   edge to some                  FY 2003 was priced at $229,500.
     vendors.
                                 We found that some Multiple Award Schedule (MAS) contracts awarded by
                                 the Heartland Region’s Center for Facilities Maintenance and Hardware
                                 have National Stock Numbers (NSNs) assigned directly to the MAS
                                 contracts, and agencies are able to cite an NSN when placing a schedule
                                 order.

                                 Historically, government agencies (primarily DoD) have used NSNs for the
                                 purchase of items from government stock or the SOP. The customer agency
                                 was not required to perform any procurement-related tasks because GSA
                                 performed these tasks in accordance with laws and regulations prior to
                                 putting an item into stock. During the 1990s, in response to product quality
                                 issues, FSS expanded its tool program to include high-quality items. In this
                                 process, FSS assigned thousands of new NSNs to specific vendor items.
                                 These items were procured under special MAS contracts where GSA was
                                 the only authorized user. Soon after implementation of these new programs,
                                 FSS decided to convert the new programs from stock to MAS and in this



4 Semiannual Report to the Congress
 Management Challenges



Procurement Activities (continued)

conversion, the NSNs that had previously been assigned to these vendors
were attached to the new MAS contracts. These MAS contracts are open to
all government agencies and allow an ordering agency to place an MAS
order using an NSN. However, by using the NSN to order, customer
agencies may believe they do not need to make a determination of best
value compared with similar products from other vendors, even though MAS
procurements generally require this determination.

Thus, these vendors enjoy an unfair advantage over competitors and DoD
customer agencies prefer using the NSNs to place orders. However, based
on our review, we believe that these practices provide an unfair advantage to
some companies and allow for the possible noncompliance with
procurement regulations. As a result, we believe that the Heartland Region
FSS should take action to remove all NSNs from MAS contracts.

The Deputy Regional Administrator concurred with our findings and
recommendations.

Contract Management
GSA increasingly accomplishes its mission by using contractors to provide
client services and products. Its multibillion dollar acquisition programs have
expanded rapidly in terms of size, variety, and complexity of the
procurements performed. While many GSA contracts are well crafted and
properly administered, we are finding an increasing number of weaknesses.
Our audit work in recent years has revealed a growing list of warning signs
throughout the acquisition process that suggests the technical and
management skills needed by the procurement workforce to operate in this
more sophisticated arena are not keeping pace with these new demands.

Western Distribution Center Relocation Project
In our previous semiannual report, we highlighted our review of GSA’s
projection of costs and savings used to justify the decision to relocate and
modernize the Western Distribution Center. As part of its global supply
program, FSS operates two distribution centers—the Eastern Distribution
Center (EDC) in New Jersey and the Western Distribution Center (WDC) in
California. Because FSS intends to modernize the Eastern Distribution
Center using the same approach as used in California, we performed this
review to assess whether the project was accomplished within anticipated
costs.

FSS relocated most of the WDC operations from Rough & Ready Island in
Stockton, CA to a newer, more technologically advanced facility located at
the nearby Sharpe Depot in French Camp, CA. FSS had estimated the total
cost for the relocation and modernization at $22.7 million, based on a March
2002 feasibility study it had commissioned. In July 2002, FSS awarded the


                                                 Office of Inspector General 5
                                      Management Challenges



                                 Contract Management (continued)

                                 contract to relocate the operations and upgrade the distribution system to
                                 the same firm that performed the feasibility study. At that time, FSS planned
                                 to open the new facility by March 31, 2003.

                                 According to FSS officials, the then military buildup for the Iraq conflict was a
                                 factor in their mid-March 2003 decision to delay the start of operations at the
                                 new facility in order to ensure continuity of services for supplies to the
                                 military. The start of operations was further delayed when, due to the
                                 various types of technologies (i.e., laser, digital, and radio frequency)
                                 employed at the new facility, significant interface complications between the
                                 software and material handling equipment were encountered. Nearly
        Depot                    14 months later, system testing was finally completed on May 28, 2004.
    modernization
                                 While we believe the new distribution system should not only improve
  delayed, and costs             productivity but also provide valuable data collection and online analysis
   are much higher               capabilities, the final $39 million cost far exceeded FSS’ anticipated cost,
    than expected.               coming in at over 72 percent above estimate. The contractor’s costs were
                                 $7 million higher than what was estimated in the original feasibility study. In
                                 addition, there were significant cost elements not considered in the original
                                 estimate including overtime and contract labor ($4.9 million), unanticipated
                                 rent expense at the Stockton facility during the transition period
                                 ($1.8 million), and additional material handling equipment rental and other
                                 miscellaneous costs ($0.5 million).

                                 We attributed the increase to two factors. First, FSS used insufficient and
                                 inaccurate information for the project’s plan and design phases. Second,
                                 FSS did not analyze the feasibility study and technical proposal to ensure
                                 that cost estimates were accurate and the technical systems would be
                                 compatible.

                                 Since FSS is considering a similar modernization at the EDC, our
                                 September 2004 report to the Commissioner recommended that FSS:

                                 • Ensure more accurate and complete FSS data necessary for design or
                                   proposals on future projects is available.

                                 • Analyze and validate any proposals or designs for future capital projects
                                   before making any commitments.

                                 The Commissioner concurred with our recommendations.

                                 Wireless Telecommunications Services
                                 Under the Federal Wireless Telecommunications Services Contract, GSA
                                 spends $4 million annually for approximately 4,000 wireless devices for
                                 employees. Another 2,600 are provided under other various contractual



6 Semiannual Report to the Congress
                      Management Challenges



                     Contract Management (continued)

                     agreements. Under the Federal Wireless Contract, GSA’s overall cost
                     equates to $.60 per minute of usage. We performed this review to evaluate
                     GSA’s management of the efficiency and costs of wireless
                     telecommunication services.

                     Our review found that GSA can reduce and better manage its wireless costs
                     through billing analysis. One private research group estimates that
GSA can save up to   organizations can save 7 to 12 percent of their annual wireless costs by
  12 percent on      correcting billing errors. Carrier billings, service abuses, and inaccurate
     wireless        subscriber billings are all ways in which critical dollars can slip through the
                     cracks. The Chief Information Officer (CIO) has already identified a one-time
 communication       savings of almost $85,000 principally in obtaining adjustments for being
  costs through      erroneously billed for 153 wireless phones belonging to other agencies.
improved analysis    Based on GSA’s current expenditure of $4 million annually on wireless
                     phone bills under its Federal Wireless Telecommunications Service
   of billings.      agreement, GSA could save between $280,000 and $480,000 annually by
                     examining billings for errors.

                     More and more private companies are focusing on driving down the total
                     cost of ownership (TCO) of wireless communications. Under this concept,
                     an organization constantly audits billings and usage to reduce cost per
                     minute to the lowest possible level.

                     In our September 30, 2004 report, we recommended that the CIO embrace
                     the concept of TCO and develop plans aimed at reducing wireless phones’
                     cost per minute. The CIO stated that his office plans to take steps
                     necessary to better manage cell phone costs in GSA.

                     The New Brooklyn Courthouse
                     In recent semiannual reports, we have reported on time delays and cost
                     overruns in PBS construction projects. At the request of the previous
                     Regional Administrator for the Northeast and Caribbean Region, we
                     analyzed the problems experienced in the construction of the new Brooklyn
                     Courthouse.

                     Prompted by a “judicial space emergency” in the eastern district of New York
                     declared by the Judicial Conference of the United States in 1989, GSA
                     initiated the Brooklyn Courthouse project. Over the next several years, GSA
                     performed various design and pre-construction activities and in 1996,
                     submitted a prospectus requesting $187 million for the construction,
                     management, and inspection of the new courthouse. However, due to a
                     10 percent rescission against all court construction projects in FY 1997,
                     Congress only appropriated $169 million for Brooklyn. Initial bids for the
                     project in February 1998 came in well above the available funds. With each
                     attempt to lower the cost of the project through soft scope cost reductions



                                                                      Office of Inspector General 7
                                      Management Challenges



                                 Contract Management (continued)

                                 such as reduced liquidated damages, less restrictive subcontractor
                                 qualifications, and elimination of a 45-day suspension of work clause, the
                                 low bid got higher. Due to the rampant construction demand in New York
                                 City, there was a critical shortage of laborers, including electricians,
                                 carpenters, and masons. As a result, contractors were including premiums
                                 in their bids.

                                 Lacking sufficient funds to make the contract award, GSA allowed the bids to
                                 expire. The contract was eventually awarded in September 1999 after the
  Funding shortfalls             project was redesigned with significant scope reductions including the
   and late contract             elimination of four floors. The targeted completion date was revised to July
                                 2002. GSA had to request congressional approval for additional funding
  award led to years             because the new base bid was $3 million higher than the initial low bid as
    of delays and                costs were escalating at about $500,000 a month.
    design scope
                                 From very early on in the project, the contractor experienced schedule
     reductions in               problems and did not have adequate manpower to get the project back on
       Brooklyn                  track despite constant urging by GSA to increase the manpower to
      Courthouse                 acceptable productive levels. The contractor ultimately declared bankruptcy
                                 in September 2003, with about 77 percent of the project complete. Project
     construction.               officials now hope that the surety’s takeover contractor will complete the
                                 project to allow occupancy by late 2005.

                                 In our June 7, 2004 report, we concluded that the convergence of restrictive
                                 funding, an extremely active construction market, scope reductions based on
                                 overly optimistic estimates, manpower shortages, and the prime contractor’s
                                 slow spiral toward bankruptcy contributed to this “perfect storm” of
                                 construction projects. The delayed completion of the courthouse has forced
                                 judges to share courtrooms and resulted in increased leasing costs to house
                                 displaced court-related functions. When the project is finally completed, the
                                 customer agency will occupy a building constructed with several fewer floors
                                 and fewer features than originally envisioned, and costing more than
                                 $270 million.

                                 Information Technology
                                 GSA is in the process of replacing a number of its old information systems to
                                 improve performance and take advantage of technological advances. Since
                                 GSA has had difficulty sharing usable data between systems, many of the
                                 new information technology (IT) projects are intended to go beyond
                                 automating current business functions and to create real change in the way
                                 that GSA does business. However, GSA systems, development projects
                                 have typically experienced significant schedule delays and cost overruns,
                                 the need for frequent redesign, and a prolonged period of time in
                                 development.




8 Semiannual Report to the Congress
                      Management Challenges



                     Information Technology (continued)

                     GSA’s Information Technology Security Program
                     The Federal Information Security Management Act (FISMA) requires Federal
                     agencies to develop, document, and implement an agency-wide information
                     security program to secure Federal information systems. The Act also
                     requires each Office of Inspector General to perform annual reviews of their
                     respective agency’s information security program and select system controls.

                     In this year’s review, we found that GSA’s IT Security Program, managed by
                     the GSA Chief Information Officer (CIO), has improved over the past year,
  Key IT security    but challenges remain, and there is a need to establish agency-wide policies
                     and procedures as an integral part of security practices for all Agency
 tasks required by   systems. The CIO has designated a Senior Agency Information Security
FISMA remain to be   Officer with responsibilities for overall IT security and for ensuring that IT
    completed.       security requirements are implemented agency-wide. Since last year, new
                     measures to better secure GSA systems have been introduced, including the
                     publication of a variety of procedural and technical guides and the
                     development of new, role-based IT security training.

                     Our review of security controls established with GSA’s IT Security Program
                     identified key areas where additional improvements are needed to ensure
                     success with the program. First, GSA’s IT Security Program inventory of
                     major applications and general support systems did not include all Agency
                     systems as required. Further, GSA’s agency-wide IT security policy needs to
                     be strengthened to identify compensating controls for mitigating risks related
                     to contractors supporting GSA systems who have not yet received required
                     background checks, due to a backlog in the process. Also, for the nine GSA
                     systems we reviewed this year, the CIO’s system Certification and
                     Accreditation process was not being consistently implemented, and risk
                     mitigation plans were not always effectively used to track and resolve
                     security weaknesses. GSA’s IT Security Program must better ensure that
                     contractor provided systems meet security requirements established under
                     FISMA. Overall, there is a need for improved oversight and monitoring
                     across the Agency of the implementation of IT security policy and
                     procedures established with GSA’s IT Security Program.

                     In our September 27, 2004 report, we recommended that the CIO take
                     action to:

                     • Ensure that all systems across GSA are included in the inventory
                       maintained by the Office of Senior Agency Information Security Officer.

                     • Develop and implement compensating controls to reduce risks from
                       granting contractors access to GSA systems and data prior to the
                       completion of required background checks.




                                                                     Office of Inspector General 9
                                  Management Challenges



                                 Information Technology (continued)

                                 • Incorporate controls to ensure operations of contractors supporting GSA
                                   systems and data are adequately monitored and that certification and
                                   accreditation documentation are current and complete.

                                 The CIO concurred with our recommendations.

                                 Review of FedBizOpps
                                 FedBizOpps is a GSA-managed system that replaced Commerce Business
                                 Daily and its Internet portal, CBDNet, as the designated single point-of-entry
                                 for government contract opportunities over $25,000. Through
                                 FedBizOpps.gov, commercial vendors seeking Federal markets for their
                                 products and services can be notified of business opportunities posted to the
                                 system by government buyers across the entire Federal contracting
                                 community.

                                 To gather information on user satisfaction and to assess the effectiveness of
                                 FedBizOpps, we conducted the first online survey of more than 388,000
 First online survey             FedBizOpps system users. Almost 16,000 of the 20,000 respondents
   open to nearly                classified themselves as vendors. We found that while GSA regularly
                                 obtains input from government FedBizOpps users as to how the system is
    400,000 users                functioning and how it can be improved, similar input is not requested from
      identifies                 the vendors. The vendors surveyed commented that improvements are
   improvements                  needed in FedBizOpps’ search capabilities and the graphical user interface,
                                 and an electronic bid function should be developed. Increased vendor
  needed to expand               involvement in the decision-making process regarding functionality and
 FedBizOpps usage.               enhancements to FedBizOpps is needed to expand the number of vendors
                                 offering products and services and ensure continued success with this
                                 important system.

                                 We also identified security risks to the system in that background security
                                 checks have not been completed for contractors having access to this critical
                                 system and the data. The potential introduction of malicious code or
                                 modification of data or lines of code could compromise the auditability,
                                 recoverability, or integrity of the data or application. In addition, memoranda
                                 of agreement are not in place with all Federal users of FedBizOpps to help
                                 maintain security and define the controls, roles, and responsibilities of each
                                 user.

                                 Our August 2004 report recommended that GSA’s Office of Governmentwide
                                 Policy regularly solicit the vendor community for ideas to more effectively link
                                 government buyers with the vendors who can most effectively and
                                 economically meet the government’s needs. We also recommended that
                                 security controls should be enhanced to better manage risks with day-to-day
                                 operations of the system, including taking action to ensure that security
                                 background checks are completed on contractor personnel supporting the
                                 system and that memoranda of agreement are completed to guide
                                 departments and agencies on their responsibilities when using the system.
10 Semiannual Report to the Congress
                       Management Challenges



                      Information Technology (continued)

                      E-Gov Initiatives
                      In August 2001, the Office of Management and Budget (OMB) launched an
                      E-Government (E-gov) task force (Quicksilver) to evaluate ideas for
                      electronically improving government operations and eliminating redundant
                      systems. The President’s Management Council adopted 23 electronic
                      government initiatives and assigned development of five of these to GSA.

                        Review of E-Authentication. E-Authentication is one of GSA’s E-Gov
                        projects, and its success is critical to the provision of several electronic
 E-Authentication       capabilities across government. One of E-Authentication’s primary goals
                        is identity verification when conducting electronic transactions with the
 risk analysis and      Federal Government; the goal is to use existing identity credentials to
  business model        ensure that individuals are who they claim to be. Credential service
     need to be         providers, such as banks, provide these readily available credentials. The
                        E-Authentication initiative is intended to help minimize duplicative and
 reevaluated, and       costly authentication solutions for electronic transactions across
 project life-cycle     government. In addition, authorization of specific access rights for
guidance and pilot      Federal systems will be greatly enhanced with E-Authentication services,
                        since a more rigorous process for authentication will take place before
    test results        system access rights are authorized. E-Authentication is also intended to
  incorporated, to      provide increased security, privacy management, and standards-based
 ensure essential       interoperability.
security for E-Gov      Our September 30, 2004 report identified areas where improvements are
     initiatives.       needed with the initiative and recommended that FTS, the designated
                        process owner of E-Authentication, takes specific actions to ensure
                        success with this important undertaking. First, the E-Authentication Risk
                        and Requirements Analysis completed by the E-Gov initiatives prior to
                        May 2004 should be reevaluated against the revised OMB guidance on
                        assurance levels to determine if current levels are still valid. Second, a
                        business model that includes a funding model and business strategy for
                        FY 2006 and beyond for customer use of the service, and the provision of
                        credentials by credential service providers is needed to ensure long-term
                        success. Third, consolidated E-Authentication life cycle guidance is
                        needed to assist E-Gov initiatives in fully implementing E-Authentication
                        into their project life cycles. Finally, important results from a planned pilot
                        of E-Authentication, to include lessons learned on privacy protection,
                        should be incorporated into the E-Authentication Full Operational
                        Capability report that was released in June 2004.

                        GSA management concurred with our findings and recommendations and
                        is taking prompt actions to address these issues. Through a continued
                        focus on mitigating the risk areas we have identified, GSA will better
                        ensure the successful implementation of E-Authentication services and
                        realization of expected benefits for all E-Gov initiatives.



                                                                       Office of Inspector General 11
                                  Management Challenges



                                 Information Technology (continued)

                                   Federal Asset Sales. OMB assigned the development of another E-Gov
                                   initiative, Federal Asset Sales (FAS), to GSA in October 2001. It
                                   envisioned FAS to be developed in 12 to 18 months at a cost of
                                   $5 million. GSA’s mission was to develop a secure, effective, and efficient
   Developing this                 one-stop online environment across Federal agencies that would provide
                                   clear information and a marketplace for excess Federal real and personal
 E-Gov initiative has              property and financial assets. The intent was to improve the way excess
  taken longer and                 Federal assets are reutilized by Federal and non-Federal agencies and
   costs more than                 non-profit organizations, or sold on the Internet.

  envisioned; many                 We found that the task force’s initial analysis of FAS was performed under
 development steps                 short timeframes and relied heavily on numerous assumptions, estimates,
                                   and incomplete information. GSA then developed a more detailed
   and challenges                  business case, but it suffered from many of the same shortcomings—a
       remain.                     lack of complete and accurate data regarding the characteristics and
                                   volume of assets to be sold, the value of the assets, the level of use by
                                   Federal agencies, and the amount of quantifiable savings.

                                   We concluded that although the FAS team has made substantial effort to
                                   plan and develop FAS, after nearly 2½ years and over $7 million spent,
                                   many development steps remain. In addition, substantial barriers may
                                   reduce the benefits and cost-effectiveness of FAS, and the FAS Program
                                   Management Office has had difficulty obtaining customer commitment to
                                   use FAS.

                                   We recommended that GSA’s CIO direct the E-Gov Program
                                   Management Office to analyze what changes are needed to ensure that
                                   FAS achieves the maximum benefit for the minimum cost, and that
                                   portions of the initiative that do not appear to be cost-effective are not
                                   pursued further.

                                   The CIO stated that his office has narrowed the project scope to focus on
                                   core GSA business mission. A substantially revised business case for the
                                   FAS initiative was submitted to, and subsequently approved by, OMB in
                                   2004.

                                 Management Controls
                                 Multiple management controls and extensive supervisory reviews have been
                                 replaced, through streamlining efforts, by fewer and broader controls,
                                 making it essential that the remaining control processes be emphasized and
                                 consistently followed. Streamlined processes have helped GSA achieve its
                                 goal of serving customers more quickly and efficiently; however, the Agency
                                 is exposed to the risk of mismanagement and abuse if program officials do
                                 not ensure the faithful application of existing safeguards.




12 Semiannual Report to the Congress
                    Management Challenges



                   Management Controls (continued)

                   Employee Awards Program
                   GSA’s Office of the Chief People Officer administers an online employee
                   awards system to help recognize special achievements at the time of their
                   occurrence rather than the former practice of tying rewards to the annual
                   rating process. Under the GSA Awards Program, cash awards are
                   processed through FedDesk, an automated platform through which
                   designated officials electronically approve awards using password-protected
                   authorization procedures. In a 2002 review, we reported significant
                   problems with management controls over GSA’s Awards Program.

Circumvention of   This period, we completed a follow-up review to determine how
 controls leaves   management controls have improved. We noted some improvements since
                   our last review; however, we found that several of the previously reported
  award system     problems still exist.
   vulnerable.
                   We found that in several locations, managers had in effect delegated their
                   award authority to nonsupervisory administrative staff by sharing their
                   FedDesk user name and password with the administrative staff who then
                   processed the awards for the managers. By doing so, managers improperly
                   gave nonsupervisory staff opportunities to approve and process awards.

                   We determined that once an authorized approving official (or someone with
                   their login data) gains access to FedDesk and the Awards Program, the
                   system only requires entry of a Social Security number but no additional
                   password. Thus, once access is gained, anyone knowing an approving
                   official’s Social Security number could then process transactions as that
                   other official. This control breakdown could result in transactions that cannot
                   be traced to the actual person who entered them.

                   We also found that in one region, officials approved awards to employees
                   they did not supervise without first seeking concurrence of the employees’
                   managers as required by GSA policy.

                   In addition, we encountered difficulty in obtaining award justification
                   documentation for a significant part of our sample because the FedDesk
                   system only allowed access to awards entered in the prior 12-month period.
                   Although we were told the information was put in the system, it was no
                   longer accessible for verification or review. This problem has been
                   alleviated since approving officials are now required to enter justifications
                   online, and the system access has been corrected so the data is accessible
                   for a two-year period.

                   As part of management’s corrective actions in response to our prior audit,
                   the Director, Office of Human Resources issued a memorandum on
                   November 22, 2002 that stated:



                                                                   Office of Inspector General 13
                                  Management Challenges



                                 Management Controls (continued)

                                       It is the responsibility of all managers to ensure the integrity of the
                                       incentive awards program. You should periodically review awards
                                       given in your organization to identify any areas of potential abuse
                                       and take action to resolve such abuse if it exists.

                                 The fact that approving officials know management reviews their actions and
                                 provides feedback to appropriate officials, as necessary, is an important
                                 management control. In our follow-up review, we queried approving officials
                                 to determine if they were aware of any oversight from their managers. Of
                                 the 104 approving officials we contacted, 34 were unaware of any
                                 management oversight. Only 16 of those who said that they had some level
                                 of oversight could produce written evidence of that oversight.

                                 Our September 21, 2004 report noted that GSA management has taken
                                 many actions, including the recertification of all approving officials by the
                                 Heads of Service and Staff Offices and Regional Administrators. The report
                                 also recommended that the Chief People Officer develop a tool for
                                 management officials to perform periodic review of the justification and
                                 nature of awards, issue guidance on the use of administrative staff to
                                 perform data entry tasks for awards, develop changes to the system to
                                 require maintenance of justifications, and require a password in addition to
                                 Social Security numbers for access.

                                 GSA Fleet’s Accident Management Center Operations
                                 GSA Fleet established the Accident Management Center (AMC) in 2001 to
                                 ensure greater consistency in processing accident cases, provide better
                                 service to its customers, and more effectively control accident-related costs.
                                 In FY 2003, the AMC closed over 23,000 cases that totaled more than
                                 $38 million in damages. Our review of the AMC operations disclosed that it
                                 was, for the most part, achieving its objectives, and that customer agencies
                                 were pleased with its services. We were, however, concerned with the
                                 procedures the AMC followed for collecting accident damage claims from the
  Pressure to quickly            private sector, referred to as third party claims.
    close files led to
                                 We found that AMC’s accident damage collection process sometimes
        incorrect
                                 resulted in the pursuit of unsupported claims, which could adversely affect
    conclusions that             third party individuals’ credit histories. AMC personnel process third party
   third parties were            claims when they conclude from documentation provided by customer
                                 agency drivers that the third parties were responsible for damages to GSA’s
     responsible for
                                 vehicles. After determining the cost of the damages, the AMC issues a
       accidents.                demand letter to the third party and forwards the claim to GSA’s Office of
                                 Finance (Finance). Unless payment is received within 60 days, Finance
                                 refers the debt to the U.S. Department of Treasury (Treasury) for collection
                                 where it is subject to reporting to credit bureaus, offset from any funds
                                 payable to the third party, and referral to debt collection agencies. When



14 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      documentation such as police reports or accounts provided by witnesses
                      surfaced and showed its conclusions were incorrect, AMC then dropped the
                      claims, but in some cases the debt had already been referred to Treasury
                      and credit bureaus notified of delinquent debts to the government. The third
                      parties then had difficulty getting their credit ratings cleared. We learned
                      that some third parties had difficulty disputing or discussing their debt
                      because it was transferred between multiple offices.

                      We concluded that pressure to quickly close files in some cases led to
                      incorrect conclusions, based on minimal evidence, that third parties were
                      responsible for accidents. GSA’s use of its authority to expedite collections
                      must be exercised judiciously and only after the AMC has validated the debt
                      and made reasonable efforts to collect from insurance companies.

                      GSA agreed with our recommendations to institute procedures to ensure
                      third parties will have one point of contact for discussing or disputing claims,
                      and to ensure that debt is not referred to Treasury until the AMC has clearly
                      determined that third parties are responsible for the damages.

                      The audit also disclosed that proper procurement procedures were not
                      always followed and documented, and that the goal of meeting the
                      performance measure of closing accident files within 30 days sometimes
                      conflicted with providing good customer service. GSA is taking steps to
                      correct these weaknesses.

                      GSA Fleet Vehicle Disposals
                      GSA provides vehicles and fleet management services to Federal customer
                      agencies and manages a worldwide fleet of over 185,000 vehicles. Each
                      year, GSA Fleet (Fleet) purchases approximately 40,000 vehicles and sells
                      35,000. The vehicles that Fleet sells are made available for the public to
                      purchase at Fleet auctions, which are held at locations nationwide
                      throughout most of the year. Annual proceeds from these auctions can
                      exceed $200 million.

                      The objective of our audit was to determine whether management controls
                      over proceeds derived from vehicle sales are effective in ensuring that
Fleet sales process   proceeds are received, deposited, and accounted for in a timely manner.
improved; controls    We found that GSA has effectively utilized auction house contracts to
                      improve the vehicle disposal process, shifting primary responsibility for
     operating        handling sale proceeds to the auction houses. Further, current controls are
    effectively.      sufficient to ensure accurate accounting for these sales. However, while
                      these contracts have improved the disposal process and mitigated a great
                      deal of GSA’s risk, Fleet does not always enforce the contract provision
                      requiring prompt transfer of sale proceeds from the auction house to GSA.
                      Consequently, auction houses have submitted late payments, and Fleet has
                      foregone interest on these late payments although the amounts are not
                      material.
                                                                       Office of Inspector General 15
                                  Management Challenges



                                 Management Controls (continued)

                                 We recommended that Fleet enforce the timeliness of the electronic fund
                                 transfer contract provision to prevent the problem from becoming significant.
                                 Further, Fleet should consider fund transfer timeliness as a source selection
                                 criterion for future auction house contracts.

                                 The Federal Supply Service Commissioner agreed with the finding and
                                 recommendation in our report.

                                 Agency Liaison Division
                                 The Agency Liaison Division (ALD), located in the National Capital Region, is
                                 one of three organizations within GSA that provides external services to
                                 small agencies, boards, and Presidential and congressional commissions on
                                 a reimbursable basis. (The Office of Finance and the National Payroll
                                 Center, both located in Kansas City, provide accounting and payroll services
                                 respectively.) In FY 2003, ALD provided a variety of administrative and
                                 management support services, primarily human resource, budget, and
                                 coordination activities to 29 clients. Competition is growing in the external
                                 services market, and, for ALD, recovering costs is becoming an increasingly
                                 challenging task from year to year, leaving little time to implement new
                                 strategies and initiatives.

                                 Although ALD is supposed to fully recover its costs, we found in our review
                                 that ALD’s customer pricing methodology did not always reflect actual cost
                                 data, was inconsistent in its allocation of costs, and oftentimes was adjusted
                                 to accommodate a client’s inability to pay for services. In addition, ALD
                                 lacks formal performance measures necessary to evaluate the effectiveness
                                 of the program in meeting its mission, objectives, and fiscal responsibility,
                                 and to adjust to a changing environment.

                                 In our April 5, 2004 report, we recommended that the Agency Liaison
                                 Division:

                                 • Establish a consistent and clear pricing methodology.

                                 • Develop a formal business strategy with qualitative and quantitative
                                   performance measures aligned with its mission, goals, and program
                                   processes.

                                 • Track and analyze time and cost data.

                                 • Explore alternative means of additional funding.

                                 The Regional Administrator fully concurred with our findings and stated that
                                 the region is taking the necessary action to resolve the issues.




16 Semiannual Report to the Congress
                      Management Challenges



                     Protection of Federal Facilities and Personnel
                     Providing a safe, healthful, and secure environment for over 1 million
                     workers and the visitors to over 8,300 owned and leased Federal facilities
                     nationwide is a major multifaceted responsibility of GSA. The increased
                     risks from terrorism have greatly expanded the range of vulnerabilities
                     traditionally faced by building operations personnel. In March 2003, the
                     Federal Protective Service (FPS) was transferred from GSA to the
                     Department of Homeland Security (DHS). While FPS is no longer part of
                     GSA, the Agency has a continual need to closely interact with security
                     personnel due to GSA’s mission of housing Federal agencies. GSA and
                     FPS/DHS operate under a Memorandum of Agreement for obtaining
                     services such as basic security for buildings, contract guards, law
                     enforcement, background suitability determinations for contractors (including
                     child care center personnel), pre-lease security checks, occupant emergency
                     plan support, and continuity of operations support. Ensuring that Federal
                     employees have a secure work environment and that building assets are
                     adequately safeguarded must remain a primary concern of GSA.

                     Security Clearance Process for Contractor Personnel
                     In recent semiannual reports, we have highlighted our concerns that
                     significant numbers of GSA contractor employees did not have proper
                     security clearances. GSA policy requires that all contractor employees are
                     required to pass a background suitability check in order to work in
                     GSA-controlled buildings. GSA also requires contractors accessing
                     computer systems containing sensitive information undergo background
                     screenings prior to gaining access to Agency systems. All contractor
                     employees who design, operate, test, maintain, and/or monitor GSA systems
                     are required to have at least a background investigation consisting of a
                     National Agency Check and Inquiries Credit review. Although this period we
    Contractor       did not issue any reports on issues regarding contractors accessing
                     buildings, we did identify instances of non-cleared individuals having access
personnel without    to GSA information systems.
completed security
  clearances are     In our review of GSA’s Information Technology Security Program discussed
                     on page 9, we found that there is a significant backlog of several hundred
  operating GSA      background checks in process across the Agency. While system owners are
     systems.        requesting the required checks, the process is typically taking more than one
                     year. We also noted that background checks had not been completed for
                     FedBizOpps contractors (page 10). Not conducting these investigations may
                     have increased the possibility of vulnerabilities and security risks for the
                     systems.

                     We recommended that management ensure that background checks are
                     completed on contractor personnel supporting the systems, and that
                     compensating controls be developed and implemented to reduce risks to
                     systems and data when reviews are delayed.



                                                                   Office of Inspector General 17
                           Promoting and Protecting Integrity



                                 GSA is responsible for providing working space for almost one million
                                 Federal employees. The Agency also manages the transfer and disposal of
                                 excess and surplus real and personal property and operates a
                                 governmentwide service and supply system. To meet the needs of customer
                                 agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                                 materials, and services each year. We conduct reviews and investigations in
                                 all these areas to ensure the integrity of the Agency’s financial statements,
                                 programs, and operations and that the taxpayer’s interests are protected. In
                                 addition to detecting problems in these GSA programs and operations, the
                                 OIG is responsible for initiating actions to prevent fraud, waste, and abuse
                                 and to promote economy and efficiency. When systemic issues are
                                 identified during investigations, they are shared with GSA management for
                                 appropriate corrective actions.

                                 Significant Criminal and Civil Actions
                                 MCI/WorldCom Corporation Settles False Claims Act Suit for
                                 $27.6 Million
                                 On May 4, 2004, the Department of Justice publicly announced a previously
                                 reached settlement with MCI/WorldCom (MCI) Corporation for $27.6 million
                                 that resolved allegations that the company had fraudulently overcharged the
                                 government. The allegations arose out of a suit filed by a whistleblower
                                 under the qui tam provisions of the False Claims Act. The whistleblower had
       MCI pays                  alleged that the company defrauded the government on its GSA
   $27.6 million to              telecommunications contract. An audit and investigation confirmed that MCI
 resolve government              overcharged the government on the FTS 2001 contract for the fees it was
                                 required to pay to local telephone companies to help them recover the costs
    allegations of               of providing outside telephone wires, underground conduits, telephone poles,
      fraudulent                 and other facilities that link each telephone customer to the telephone
    overcharges.                 network. The GSA contract allowed the company to “pass through” to the
                                 government all charges that it actually paid to local telephone companies.
                                 MCI, however, billed the government for millions of dollars more than they
                                 had paid to the local telephone companies. The bankruptcy status of the
                                 company restricted the amount of the recovery by the government. The
                                 terms of the settlement provided that MCI pay $27 million in cash, plus over
                                 $600,000 in credits on the contract. MCI voluntarily agreed to eliminate all
                                 future “pass through” charges so as to ensure that no additional overcharges
                                 to the government occur. The qui tam whistleblower received a portion of
                                 the settlement.

                                 Snap-on Industrial Pays $10 Million to Resolve Price Reduction and
                                 Billings Allegations under Its GSA MAS Contract for Tools
    Snap-on pays
                                 On July 23, 2004, the government negotiated a $10 million settlement with
 $10 million to settle           Snap-on Industrial (Snap-on), a division of IDSC Holdings LLC, of its civil
   price reduction               False Claims Act liability. Snap-on holds a GSA Multiple Award Schedule
        claim.                   (MAS) contract for the sale of tools to Federal agencies. The government
                                 had alleged that Snap-on had, under both its current MAS contract and a



18 Semiannual Report to the Congress
                     Promoting and Protecting Integrity



                        predecessor contract, violated the terms of the price reduction clause and
                        billings provisions. Specifically, the government alleged that Snap-on had
                        extended better pricing during the contracts’ term to certain designated
                        commercial customers contrary to the price reduction clause’s mandate. In
                        addition, the government alleged that significant overbillings had occurred
                        under both contracts, in part because of Snap-on’s failure to extend Federal
                        agencies the GSA negotiated price.

                        Storage Engine and Former President Pay Over $400,000 to Settle
                        Fraudulent Overcharges Based on Kickbacks
                        On September 27, 2004, the government negotiated a settlement for
                        $225,000 with Storage Engine (formerly ECCS) and its former president for
                        violations of the civil False Claims Act. The settlement resolved allegations
                        that Storage Engine engaged in a scheme to defraud the United States by
Storage Engine and      paying kickbacks to two Dynamics Research Corporation (DRC) officials in
its former president    connection with a task order DRC was performing under a GSA MAS
   pay $400,000 to      contract. The cost of these kickbacks was passed along to the government
                        as overcharges. The DRC task order was issued for the development of a
 settle False Claims    defense-related information technology system at Hanscom Air Force Base.
     Act action for     ECCS, Incorporated (the name of Storage Engine prior to its bankruptcy
    overcharges in      reorganization), had previously paid $182,500 to the government in
                        connection with this matter. As previously reported, the two DRC officials
  kickback scheme.      had already pled guilty to criminal charges and paid the government
                        restitution. The government is continuing to pursue DRC for civil fraud in
                        connection with this conduct under a pending civil False Claims Act and
                        Anti-Kickback Act lawsuit that was filed in the District of Massachusetts in
                        October 2003.

                        Ashland Chemical Company Pays $350,000 to Resolve Government’s
                        False Claims Act Allegations
                        On August 31, 2004, the government negotiated a settlement with Ashland
                        Chemical Company d/b/a Drew Industrial, a former GSA vendor that
                        previously provided chemical products to GSA through an MAS contract that
Ashland Chemical        was terminated in December 1997. The settlement resolved allegations that,
 Company pays           between early 1998 and October of 2000, Drew continued to sell its products
                        to GSA through its distributor, C&E Services, Inc., which, while holding its
$350,000 to settle      own GSA MAS contract, was not authorized by GSA to sell the Drew
False Claims Act        products in question. The earlier Ashland GSA contract was terminated by
     action.            Ashland after the vendor paid approximately $1.8 million to resolve civil
                        False Claims Act allegations of defective pricing relating to the products it
                        was selling to government purchasers under its GSA contract. The
                        government alleged that, as a result of the continuing sales through C&E
                        Services, Ashland knowingly sold unauthorized products to government
                        purchasers at inflated prices that were paid by the government.




                                                                       Office of Inspector General 19
                           Promoting and Protecting Integrity



                                 Dawson Building Contractors Settles Potential False Claims Act
                                 Liability Relating to Its Work on the U.S. Courthouse in Des Moines,
                                 Iowa
                                 In an agreement signed on September 24, 2004, Dawson Building
                                 Contractors, Inc. (Dawson) of Rainbow City, Alabama agreed to forfeit its
                                 $1.2 million claim in the Court of Federal Claims, and pay $300,000 to
                                 resolve its potential False Claims Act liability in connection with its work on
                                 renovations to the U.S. Courthouse in Des Moines, Iowa. After Dawson was
                                 awarded the contract on November 3, 1997, the government alleged that the
                                 company fell far behind schedule and, after several written warnings, GSA
                                 terminated Dawson for default on July 31, 1998. On August 10, 1998,
                                 Dawson filed a $1.2 million claim in the Court of Federal Claims. In the
                                 course of its work supporting GSA’s defense against that claim, OIG auditors
                                 found, among other things, that Dawson had failed to pay its subcontractors.
                                 Based on this evidence the Department of Justice, Civil Division, filed a
                                 fraud counterclaim. The settlement resolves both the original claim and the
                                 counterclaim.

                                 Three Contractors Plead Guilty in Corruption Probe
                                 An ongoing criminal investigation involving the Public Buildings Service was
                                 conducted jointly with the Federal Bureau of Investigation based on
                                 information that GSA employees were illegally awarding contracts for various
                                 building services and supplies involving a Federal courthouse in Chicago in
                                 exchange for bribes and kickbacks.

                                 The investigation uncovered a corrupt environment involving the payment of
                                 gifts, money, and illegal drugs in return for the award of GSA contracts. In
    GSA contractors              addition, the investigation revealed that some GSA employees, working in
     sentenced for               concert with certain vendors, were receiving plumbing supplies and other
        bribery.                 goods and equipment for their personal use, the cost of which was billed to
                                 GSA.

                                 During this reporting period, three GSA contractors pled guilty to charges of
                                 bribery stemming from this investigation. One of the contractors was
                                 sentenced to three years probation, and was ordered to pay $80,000 in
                                 restitution. Another contractor was sentenced to four months incarceration,
                                 250 hours community service, and one year probation, and ordered to pay
                                 $68,000 in restitution and a $4,000 fine. The third contractor was sentenced
                                 to ten months incarceration and two years probation. Sentencing of the five
                                 other individuals involved is pending.

                                 Abuse of Surplus Property Program
                                 During this reporting period, two individuals fraudulently obtained Federal
                                 surplus property through GSA’s surplus property program. On September 9,
                                 2004, a former Oklahoma school district superintendent pled guilty to theft of
                                 government property. The investigation revealed that the individual



20 Semiannual Report to the Congress
                   Promoting and Protecting Integrity



                      fraudulently acquired four mobile homes, valued at $42,924, under GSA’s
                      surplus property program. The individual sold three of the mobile homes
                      and currently resides in the fourth. He also acquired miscellaneous items
                      such as chairs, washers, dryers, and cabinets valued at $2,698. A
                      sentencing date has not been scheduled.

                      In the second instance, an investigation found that a fire chief of a volunteer
                      fire department in Belton, Texas fraudulently obtained a semitrailer valued at
                      $2,450 for the fire department and diverted the property for his personal use,
                      through which he financially profited. He was sentenced in U.S. District
                      Court to six months home detention, five years probation, 250 hours
                      community service, and ordered to pay $15,233 in restitution to recover
                      unlawful profits.

                      Subcontractor Pleads Guilty to Fraud
                      A joint investigation by the OIG and the Federal Bureau of Investigation
                      revealed that a former project manager of a subcontractor inflated bids for
                      work on the Brooklyn Federal Courthouse, in exchange for a cash payoff of
                      $5,000.
Former project
manager pleads        The investigation exposed the manager’s scheme to defraud the
                      government by accepting payoffs from a second-tier subcontractor who
guilty to fraud.      worked on the Courthouse. The investigation found that the manager
                      accepted cash payoffs from the subcontractor on various Federal, as well as
                      commercial and city jobs. On May 7, 2004, he pled guilty in U.S. District
                      Court to a one-count information of mail fraud.

                      Telecommunications Fraud
                      The OIG continues to be a principal participant in the New York Electronic
                      Crimes Task Force (NYECTF), which has been investigating
                      telecommunications fraud primarily involving Federal facilities within the New
                      York metropolitan area. GSA is the principal provider of telecommunications
                      services for these facilities. NYECTF members include the Secret Service,
                      Department of Defense, Department of Justice, New York City Police, and
                      telecommunications industry representatives.

                      A fraud investigation completed during this reporting period was initiated
                      when an AT&T Network Security Specialist disclosed to members of the
                      NYECTF that an individual was engaged in calling card fraud by “shoulder
                      surfing.” The investigation found that the individual watched customers dial
                      their calling card numbers, recorded the number, and then sold the calling
                      card numbers to individuals who used them to make unauthorized telephone
                      calls. The individual pled guilty to charge card fraud and was sentenced to
                      46 months incarceration, three years supervisory release, and ordered to
                      pay restitution in the amount of $608,159.




                                                                      Office of Inspector General 21
                           Promoting and Protecting Integrity



                                 GSA and DOJ Receive Reimbursement of Investigative Costs in
                                 Connection with Secret Settlement under a Qui Tam Action
                                 On July 26, 2004, the government settled a dispute regarding disposition of
                                 proceeds and entitlement to costs arising out of an improper settlement of a
                                 civil False Claims Act suit, brought as a qui tam action, in the Middle District
                                 of Florida. The whistleblower who filed the qui tam action, his law firm, and
                                 Intelligent Decisions (the defendant), a GSA MAS vendor of IT products, had
                                 entered into a confidential settlement agreement that provided for Intelligent
                                 Decisions to pay the whistleblower and his law firm $500,000. Contrary to
                                 legal requirements, the parties did not notify the government, the real-party-
                                 in interest in such lawsuits, nor did they seek its consent to the settlement.
                                 The government investigated the terms of the confidential settlement, and
                                 successfully sought the Federal district court’s assistance in invalidating it.
                                 Ultimately, the court found the confidential settlement to be improper and
                                 ordered the moneys to be paid back to the defendant, Intelligent Decisions.
                                 Significantly, the court also ordered the government to be reimbursed
                                 $25,000 for its investigative costs in uncovering the improper settlement and
                                 having it invalidated.

                                 Theft of Government Vehicle
                                 An investigation reported that an individual stole a government vehicle from
                                 a Federal office building garage. The investigation disclosed that the
                                 individual had fraudulently obtained a GSA identification card and used it to
                                 obtain the vehicle. On May 18, 2004, the individual appeared in U.S. District
                                 Court and pled guilty to theft of a government vehicle and impersonating a
                                 government official. He was sentenced on July 27, 2004 to 16 months
                                 imprisonment for theft of a government vehicle, 12 months imprisonment for
                                 impersonating a government official (both of which are to be served
                                 concurrently), three years supervised release, and ordered to pay a fine.

                                 Fleet Charge Card Abuse
                                 The GSA OIG has an ongoing proactive investigative project to identify and
                                 investigate fraud associated with the misuse of GSA-issued fleet charge
                                 cards. During this period, cases developed resulted in the sentencing of
                                 three individuals.
    Convictions for
     abuse of GSA                In the first instance, a joint investigation by the OIG and the Smithsonian
     charge cards.               Institution (Smithsonian) OIG determined that a Smithsonian employee was
                                 using a fleet card, that had been assigned to a vehicle leased to the
                                 Smithsonian, to purchase gas for his friends in exchange for cash. The
                                 employee pled guilty to theft charges and was sentenced to 36 months
                                 probation, ordered to pay restitution in the amount of $4,407, fined, and
                                 terminated as an employee.

                                 In the second instance, an investigation revealed that an individual was
                                 using a stolen fleet card, that had been assigned to a vehicle leased to
                                 St. Elizabeth’s Hospital, to purchase gas for his personal vehicle as well as
                                 several friends’ vehicles. He pled guilty to theft of government property and

22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   was sentenced to ten months in prison and one year supervised release,
   ordered to pay $4,323 in restitution, and fined. This individual also pled
   guilty to possession of illegal drugs and was sentenced to 12 months in
   prison and 18 months probation relating to that charge.

   In the third instance, a joint investigation by the GSA OIG, Department of
   Veterans Affairs (VA) OIG, and the Chicago Police Department determined
   that an individual was using a stolen fleet card assigned to the VA to
   purchase gas for his friends in exchange for cash. The individual pled guilty
   to theft charges and was ordered to pay restitution in the amount of $2,621.

   Two South Florida Men Sentenced for Fuel Thefts Using Forged Fleet
   Cards
   An ongoing investigation by a Federal and state task force of fraudulent use
   of fleet cards had previously discovered that ten men were using federally
   issued fuel charge cards to fraudulently purchase large amounts of fuel in
   South Florida. The investigation found that the men used stolen charge card
   numbers to illegally obtain fuel from gas stations. Once the men were
   arrested, searches were conducted at several sites leading to the seizure of
   thousands of gallons of stolen fuel, vehicles, stolen charge cards that were
   used to purchase the fuel, equipment used to manufacture fraudulent charge
   cards, and pumping devices used to store and transport fuel.

   Two of the ten men were sentenced during this reporting period. One
   individual was sentenced to serve five months in prison, five months home
   confinement, three years probation, and ordered to pay $2,419 in restitution.
   The other individual was sentenced to one year probation and ordered to
   pay restitution. Four individuals were sentenced in a prior reporting period,
   and sentencing is pending for the remaining individuals involved.

   GSA Purchase Card Fraud
   An investigation of questionable purchases disclosed that a GSA employee
   used her assigned GSA purchase card to buy for her own use, computer
   equipment and software, computer games, compact disc music and movies,
   food, clothing, sporting goods, housewares, and gifts totaling in excess of
   $34,000. The employee resigned and on April 28, 2004, pled guilty to
   unlawful use of a purchase card. Sentencing is scheduled for November 17,
   2004. Administrative actions were taken against the GSA managers who
   approved the purchase card bills.

   This investigation illustrates the importance of cooperation between GSA
   employees and the OIG. As a result of this case, vulnerabilities were
   identified by the OIG and brought to the attention of program managers.
   Consequently, controls were established that should help prevent a
   recurrence of this problem.




                                                  Office of Inspector General 23
                           Promoting and Protecting Integrity



                                 Individual Pleads Guilty to Forgery
                                 A joint investigation by the OIG and the New York City Department of
                                 Investigation OIG revealed that an individual was driving his personal vehicle
                                 with a stolen U.S. Government license plate issued by GSA. The
                                 investigation determined that the plate was reported stolen in October 2001
                                 from a government vehicle assigned to the Department of Army, New York
                                 State Armory.

                                 Upon this individual’s arrest, he presented a forged New York State National
                                 Guard identification card. The individual pled guilty to forgery and was
                                 sentenced to one year probation and ordered to perform community service.

                                 Integrity Awareness
                                 The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                 employees on their responsibilities for the prevention of fraud and abuse and
                                 to reinforce employees’ roles in helping to ensure the integrity of Agency
                                 operations.

                                 This period, we presented 14 briefings attended by 306 regional employees.
                                 These briefings explain the statutory mission of the OIG and the methods
                                 available for reporting suspected instances of wrongdoing. In addition,
                                 through case studies, the briefings make GSA employees aware of actual
                                 instances of fraud in GSA and other Federal agencies and thus help to
                                 prevent their recurrence. GSA employees are the first line of defense
                                 against fraud, abuse, and mismanagement. They are a valuable source of
                                 successful investigative information.

                                 Hotline
                                 The OIG Hotline provides an avenue for employees and other concerned
                                 citizens to report suspected wrongdoing. Hotline posters located in
                                 GSA-controlled buildings encourage employees to use the Hotline. We also
                                 developed and use our FraudNet Hotline platform to allow Internet reporting
                                 of suspected wrongdoing. During this reporting period, we received
                                 1,169 Hotline contacts. Of these contacts, 199 Hotline cases were initiated.
                                 In 99 of these cases, referrals were made to GSA program officials for
                                 review and action as appropriate, 38 cases were referred to other Federal
                                 agencies for follow up, 29 were referred for OIG criminal/civil investigations
                                 or audits, and 33 did not warrant further review.

                                 Significant Preaward and Other Audits
   Preaward audits of            The OIG’s preaward audit program provides information to contracting
                                 officers for use in negotiating contracts. The pre-decisional, advisory nature
      39 contracts               of preaward audits distinguishes them from other audits. This program
  identify $81 million           provides vital and current information to contracting officers, enabling them
  in cost avoidances.            to significantly improve the government’s negotiating position and to realize
                                 millions of dollars in savings on negotiated contracts. This period, the OIG



24 Semiannual Report to the Congress
                 Promoting and Protecting Integrity



                     performed preaward audits of 39 contracts with an estimated value of
                     $3.7 billion. The audit reports contained $81 million in financial
                     recommendations.

                     Three of the more significant Multiple Award Schedule (MAS) contracts we
                     audited had projected governmentwide sales totaling $1.4 billion. The audit
                     findings recommended that $64 million in funds be put to better use. The
                     audits disclosed that these vendors offered prices to GSA that were not as
                     favorable as the prices other customers receive from these vendors.

                     In one case, GSA awarded a $642 million, five-year MAS contract extension
                     to a reseller of IT equipment, software, and services. The preaward audit
                     found that the vendor’s affiliate, a company that sold the same items the
                     vendor was offering GSA, sold products offered under the GSA contract for
                     significantly less to commercial end-user customers. Specifically, the audit
                     found that the affiliate sold the top-selling printer under the GSA MAS
                     contract to a number of commercial end-users at prices significantly less
                     than those at which it sold the same printer to GSA. We have encountered
                     other instances where MAS vendors who sell only to Federal Government
                     (and possibly to state and local or educational customers) have
                     closely-affiliated companies that sell strictly identical products to commercial
                     customers at overall better prices.

                     We also audited various claims for increased costs. Two of the more
                     significant projects audited contained proposed amounts totaling
                     $13.5 million, and our audits of the claims recommended adjustments of
                     over $5.2 million. Our audits of three subcontractors on one construction
                     project found that the claimed amounts were either overstated or not
                     supported by the companies’ records. Another contractor submitted a claim
                     for termination costs because: (1) GSA failed to notify them in a timely
                     manner that the contract was terminated for convenience, and (2) GSA
                     breached the contract by not allowing the contractor to continue providing
                     janitorial services. The contractor’s claim was without merit because the
OMB offers support   building where the janitorial services were to be performed was the U.S.
   for expanded      Customs House located at Six World Trade Center, which was destroyed on
  preaward audit     September 11, 2001.
 coverage of FSS     The Office of Management and Budget (OMB) has long recognized the
and FTS contracts.   increasing dollar value of GSA’s contract activities and our limited resources
                     in providing commensurate audit coverage. Through FSS and FTS contract
                     program revenues, OMB officials have provided us additional financial
                     support to increase our work in this area.

                     Financial Statement Internal Control Reviews
                     The annual audit of the GSA consolidated financial statement is currently
                     being performed by an independent public accounting (IPA) firm, with
                     oversight and guidance from the OIG, as required by the Chief Financial



                                                                      Office of Inspector General 25
                           Promoting and Protecting Integrity



                                 Officers Act of 1990. In support of this effort, the OIG performed
                                 assessments of the internal controls over the Federal Systems Integration
                                 and Management Center (FEDSIM) and GSA’s payroll function.

                                 FEDSIM is one of three national Client Support Centers that help customer
                                 agencies acquire and use information systems and technology. The
                                 program focuses on large-scale acquisition management and support, large-
                                 scale systems integration projects, office systems support, software
                                 management, and data center management. With the exception of one
                                 isolated occurrence, our review of the revenue and disbursement cycles
                                 found that internal controls are in place to effectively and efficiently meet the
                                 desired control objectives. Steps have been taken to correct the one error.

                                 The OIG reviewed GSA’s internal controls over the payroll function, which is
                                 performed at the National Payroll Center (NPC) located in the Heartland
                                 Finance Center. The NPC uses the automated Payroll Accounting and
                                 Reporting System to process payroll for approximately 25,000 employees at
                                 GSA and a number of independent agencies and Presidential commissions.
                                 With the exception of two isolated occurrences, our review found that the
                                 internal controls over the payroll function appeared to be operating
                                 effectively and efficiently to meet control objectives. GSA officials corrected
                                 the errors and stated that they have recently established a procedure to
                                 perform a quality control review each pay period on a sample of personnel
                                 actions to ensure accuracy.

                                 These results were also communicated to the Office of Personnel
                                 Management (OPM) in an agreed-upon procedures report, performed to
                                 assist OPM in assessing the reasonableness of retirement, health, and life
                                 insurance withholdings and contributions, and employees headcount data
                                 that GSA’s National Payroll Center submitted to OPM during FY 2004.

                                 Alert Report on the Audit of Pegasys Account
                                 Balance and Transaction Analysis: Construction in
                                 Progress
                                 During an ongoing review of the controls over the financial reporting for the
                                 Construction in Progress account balance, we discovered a material
                                 classification error in GSA’s FY 2003 audited financial statements. The error
                                 resulted from an instance in which one project was incorrectly included in the
                                 reclassification rate used by PBS to project the amount of substantially
                                 complete projects that should have been reclassified from Construction in
                                 Progress to Property and Equipment. The project was included by PBS as
                                 substantially complete; however, our review found that the project was in fact
                                 still in progress. Based on our finding, we recalculated the adjusting journal
                                 entry generated by this statistical sample and found that the total
                                 classification error was over $921 million. We concluded that this error
                                 represented a material amount in relation to the financial statements
                                 reported as of September 30, 2003, and issued an Alert Report notifying the


26 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Office of the Chief Financial Officer (CFO) and PBS officials of the problem.
   The CFO and PBS officials have agreed to take corrective action in order to
   address the error. The implications and treatment of the classification error
   are being evaluated by management and the IPA firm for reporting in the
   FY 2003 and FY 2004 financial statements.




                                                  Office of Inspector General 27
                            Governmentwide Policy Activities



                                 We regularly provide advice and assistance on governmentwide policy
                                 matters to the Agency, as well as to other Federal agencies and to
                                 committees of Congress. In addition, as required by the Inspector General
                                 Act of 1978, we review existing and proposed legislation and regulations to
                                 determine their effect on the economy and efficiency of the Agency’s
                                 programs and operations and on the prevention and detection of fraud and
                                 mismanagement. Because of the central management role of the Agency in
                                 shaping governmentwide policies and programs, most of the legislation and
                                 regulations reviewed invariably impact governmentwide issues in areas such
                                 as procurement, property management, travel, and government
                                 management and information technology systems.

Interagency                      This period, we provided advice and assistance to the Office of Management
                                 and Budget (OMB) on various procurement policy issues, particularly in the
Committees and                   area of time-and-materials or labor-hours contracts.
Working Groups
                                 In addition, we participated on a number of interagency committees and
                                 working groups that deal with cross-cutting and governmentwide issues:

                                 • The Assistant Inspector General (AIG) for Auditing represents all civilian
                                   government agencies on the Cost Accounting Standards Board, an
                                   independent board within OMB’s Office of Federal Procurement Policy,
                                   which promulgates, amends, and revises Cost Accounting Standards
                                   designed to achieve uniformity and consistency in cost accounting
                                   practices by individual government contractors.

                                 • The AIG for Investigations serves as the Chair of the Assistant Inspectors
                                   General for Investigations Subcommittee. This subcommittee reports to
                                   the President’s Council on Integrity and Efficiency (PCIE) Investigative
                                   Committee. The subcommittee deals with investigative issues that affect
                                   all OIG Offices of Investigations, such as statutory law enforcement, peer
                                   review, and coordinated assistance to the Department of Justice.

                                 • OIG audit representatives participate in the PCIE IT Roundtable to
                                   address specialized security training and overall IT security issues based
                                   on IT information security audits.

                                 • Our TeamMate Technical Support Group participates in the TeamMate
                                   Federal Users Group and the PricewaterhouseCoopers TeamMate Users
                                   Group to discuss concerns and new challenges facing TeamMate users.
                                   TeamMate is an automated audit workpaper management system
                                   designed to make the audit process more efficient.

                                 • The Special Assistant to the AIG for Auditing represents GSA on the White
                                   House Commission on the National Moment of Remembrance. The
                                   Commission was established to enhance the legacy of Memorial Day as a
                                   day to honor those who have sacrificed their lives for the principles of
                                   freedom and liberty. Major initiatives included listing Commission


28 Semiannual Report to the Congress
                  Governmentwide Policy Activities



                       activities on Federal, state, and local government Web sites; and seeking
                       the participation of Federal employees, retirees, and benefit recipients.

                     • The Inspector General (IG) serves on the Human Resources and
                       Legislation Committees of the PCIE. The Human Resources Committee
                       fosters educational opportunities for members of the IG community and
                       assists in ensuring the professional development of OIG personnel. The
                       Legislation Committee develops, coordinates, and represents to Congress
                       official PCIE positions on particular legislative issues.

                     • An OIG audit representative chairs the Evaluation Guidance
                       Subcommittee under the Information Technology Security Committee
                       established by the Federal Audit Executive Council. The subcommittee is
                       tasked with drafting interagency guidance to be used for conducting
                       independent evaluations of Federal agency information security programs
                       in accordance with the Federal Information Security Management Act
                       (FISMA) of 2004. The subcommittee is coordinating its efforts with OMB
                       and the Government Accountability Office, and draft guidance will be
                       reviewed and approved by the PCIE Audit Committee.

                     • The IG serves as Editor-in-Chief of The Journal of Public Inquiry, a
                       semiannual publication of the Federal IG community. The OIG provides
                       production and editorial support for this publication. The Spring/Summer
                       2004 edition spotlighted the role of the Inspections and Evaluations
                       discipline within the IG community. It also addressed initiatives in
                       promoting excellence in leadership and managerial skills.

Legislation and      During this reporting period, the OIG reviewed 160 legislative matters and
                     14 proposed regulations and directives. The OIG specifically commented on
Regulations          the following legislative and other items:

                     • Guidance to GSA Contracting Officers on MAS Negotiations. We
                       provided input to Federal Supply Service (FSS) in its continuing efforts to
                       issue guidance to FSS contracting officers (COs) on negotiating MAS
                       pricing and other terms and conditions. Specifically, we provided
                       comments on two guidance documents dealing with MAS negotiations.
                       As to the first document, we suggested language to make clear that COs
                       can quantify the value of installation and maintenance terms by obtaining
                       cost information from vendors seeking to sell to the government. The
                       second document dealt with valuing differing terms and conditions when
                       negotiating government pricing. We suggested that the document would
                       be improved overall if it included concrete examples of quantifying
                       different value-added functions, and if the tone were strengthened to more
                       strongly reflect the government’s goal of obtaining best price, other terms
                       and conditions being equal. We also suggested clarifications and
                       revisions in the areas of quantifying selling expenses, and accounting for
                       bid and proposal costs.



                                                                   Office of Inspector General 29
                            Governmentwide Policy Activities



                                 • Guidance on Treatment of Other Direct Costs (ODCs) in MAS Services
                                   Procurements. We provided input to FSS in issuing additional guidance
                                   to contracting officers regarding ODCs on MAS services contracts. One
                                   of our more significant concerns had to do with duplication of such costs
                                   in both the loaded MAS labor rate and as add-on costs in particular task
                                   orders. We suggested that COs be required, at the time of negotiations,
                                   to obtain from vendors a description of the costs that they typically charge
                                   directly on a commercial basis. In our view, this would aid in eliminating
                                   duplicative costs on government orders. We also expressed a number of
                                   other concerns, including regarding coverage which appeared to endorse
                                   awarding contracts to offerors who have no commercial or government
                                   sales, and regarding coverage which allowed mark ups on travel costs.
                                   Finally, we noted that better guidance on the distinction between ODCs
                                   and incidental items is needed in order to prevent significant unrelated
                                   items from being improperly included on MAS task orders.

                                 • GSA Procedures on Vital Records. We provided GSA our comments on
                                   draft changes to the section of the GSA Records Handbook relating to
                                   vital records. We suggested that the procedures be reorganized to more
                                   clearly delineate that other types of records, such as emergency operating
                                   records, and legal and financial records, really are subsets of the overall
                                   category of vital records. We also recommended that the procedures
                                   provide specific examples of emergency operating plans. Further, we
                                   noted that GSA might want to consider combining and redefining some of
                                   the records officer positions, as there appeared to be overlap among the
                                   various listed positions.

                                 • Draft GSA Order on Enterprise Architecture. We provided the Chief
                                   Information Officer (CIO) our comments on the draft Order embodying the
                                   “One GSA” Enterprise Architecture Policy. The purpose of the Order was
                                   to prescribe policy for all GSA services, staff offices, and regions
                                   regarding Enterprise Architecture (EA). We first suggested that the Order
                                   more clearly define the relationships between the Business Systems
                                   Council, Information Technology Council, and Interoperability Control
                                   Board. It was not clear how their responsibilities and those of the
                                   Services and Staff Offices related to each other. We also noted that it
                                   was not clear from the Order how EA compliance decisions will be made
                                   as EA compliance was mentioned as a responsibility for the Chief
                                   Technology Officer, the Enterprise Chief Architect, and the Technical
                                   Review Boards. We also wondered whether each service, staff office, and
                                   region would participate in the development of EA performance measures.

                                 • Draft GSA Associate Development and Training Policy. We provided
                                   comments to the GSA Human Resources Office regarding its proposed
                                   GSA training policy. We first suggested that the listing of uses for
                                   individual development plans, as set forth in the first chapter of the policy,
                                   should be expanded to allow plans to be used for an employee who is not



30 Semiannual Report to the Congress
Governmentwide Policy Activities



     performing at the full performance level of a position. We also
     commented on certain aspects of the chapter relating to payment for
     professional certifications. This chapter represented GSA’s
     implementation of statutory changes of several years ago that would allow
     the government to pay for professional certifications. Specifically, we
     asked for clarification of whether the policy would allow for payment for a
     preparatory class for an exam that would lead to a certification, and
     whether the policy would allow for payment of membership dues in an
     organization if the membership is necessary to retain a certification or
     professional credential.

   • Updating of GSA’s Awards Handbook. We provided comments to GSA
     about the draft update to its “Performance, Special Act and Honor Awards”
     handbook. We commended GSA for working to bring its Awards program
     up to date and better aligning it with the new performance management
     system. We also made several suggestions to improve the handbook. In
     particular, we recommended that it be changed to move away from
     mandating the percentage of awards that have to be awarded to teams
     and, instead, permit managers increased flexibility to make awards to
     teams and/or individuals, as they see fit. We also suggested eliminating
     the prohibition against giving members of the Senior Executive Service
     (SES) “time off” awards. We noted that there is no statutory or regulatory
     reason to preclude this type of award, and it is in the interest of increasing
     managerial flexibility to allow “time off” as an option for awards to
     members of the SES.




                                                   Office of Inspector General 31
                            Professional Assistance Services



                                 The Government Accountability Office recently issued a revision to the
                                 independence standard contained in the Government Auditing Standards.
                                 This amendment prohibits Federal audit organizations from performing
                                 certain types of management consulting projects because they may impair
                                 the independence of the auditors when performing subsequent audit work in
                                 the same area. Although we have always maintained our independence
                                 when working closely with GSA management, we are no longer performing
                                 consulting assignments, and we carefully assess our services to ensure
                                 compliance with the new standard. As allowed under the new standard, we
                                 are continuing our participation on Agency improvement task forces,
                                 committees, and working groups in an observer or advisory capacity.

                                 Task Forces, Committees, and Working Groups. The OIG provides
                                 advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
                                 representatives advise management at the earliest possible opportunity of
                                 potential problems, help ensure that appropriate management controls are
                                 provided when installing new or modifying existing Agency systems, and
                                 offer possible solutions when addressing complex financial issues.

                                 Our direct participation with the Agency on task forces, committees, and
                                 working groups allows us to contribute our expertise and advice, while
                                 improving our own familiarity with the Agency’s rapidly changing systems.
                                 We also benefit by expanding our new initiatives within the Federal
                                 community. We nevertheless maintain our ability to independently audit and
                                 review programs. Our participation on the task forces is typically as a
                                 non-voting advisory member. We maintain a strict policy of excluding staff
                                 members who have served on developmental task forces from subsequent
                                 audits of the same subject areas.

                                 Some areas in which we have been involved this period include:

                                 • Single Audit Act Activities. The Single Audit Act established uniform
                                   audit requirements for state and local governments receiving Federal
                                   awards. The non-Federal entities that receive Federal awards under
                                   more than one Federal program are required to undergo a single audit to
                                   prevent duplicate audits and inefficiencies. Each Federal agency monitors
                                   the non-Federal entity’s use of awards provided by the Agency, and
                                   assesses the quality of the audits conducted relative to its program. The
                                   OIG monitors these activities as they relate to the personal property
                                   disposal program.

                                 • The Information Technology (IT) Council. The Council monitors
                                   policies and programs to ensure IT consistency throughout the Agency. It
                                   is comprised of the Chief Information Officers of the various GSA Services
                                   and Staff Offices. Representatives of our office participate in meetings at
                                   the request of the Agency on such matters as systems controls,
                                   architecture, security, or new legislative requirements.



32 Semiannual Report to the Congress
Professional Assistance Services



   • Multiple Award Schedule Working Group. The Multiple Award
     Schedule (MAS) Working Group was established as a result of a Special
     Report the OIG released in August 2001 relating to MAS contracting
     pricing practices—MAS Pricing Practices: Is FSS Observing Regulatory
     Provisions Regarding Pricing? (August 24, 2001). That report found that
     GSA was not consistently negotiating most-favored customer pricing, was
     extending contracts without adequate price analyses, and was not
     effectively using preaward audits to negotiate prices. The MAS Working
     Group is primarily comprised of members of the Federal Supply Service
     (FSS) and the OIG, with representation also from the Office of General
     Counsel and the Office of Acquisition Policy. The Working Group meets
     regularly and serves as a standing forum for discussion and resolution of
     issues or concerns having to do with MAS contracting. It has served as
     an effective institutionalized communications channel for both broad policy
     issues and discrete issues having to do with particular contracts or audits.

     The Working Group has had several areas of focus, including preaward
     contract audits and MAS negotiations issues. The Working Group has
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract audits. Further, the
     Working Group has reinvigorated the process for FSS and the OIG
     collaboratively selecting and commencing preaward audits of vendors,
     and has built into this process specific mechanisms for COs to request
     audits of particular vendors. The Working Group has also focused on
     issuing guidance to COs regarding negotiations objectives and discrete
     negotiations issues for MAS contract awards. The issues addressed
     relate to instances or concerns reflected in the OIG Special Pricing
     Report, and include, for example, useful strategies to negotiate using the
     government’s significant volume purchasing power. The Working Group
     also provided some input to FSS in its efforts to upgrade or enhance
     pricing performance measures on MAS contracts. In the future, the
     Working Group is considering systematically exploring other emerging
     MAS-related areas or concerns.

   • The Heartland Region Acquisition Guild and the Rocky Mountain
     Region Contract Review Group meet periodically to evaluate acquisition
     changes to the Federal Acquisition Regulation (FAR), GSA Acquisition
     Manual, and directives and their associated impact on the regional
     contracting officials, and provide instruction/guidance to regional
     contracting personnel relative to the changes. OIG audit representation is
     provided on an advisory ad hoc basis.




                                                  Office of Inspector General 33
                   Statistical Summary of OIG Accomplishments



                                 Audit Reports Issued
                                 The OIG issued 69 audit reports during this reporting period. The reports
                                 contained financial recommendations totaling $119,265,244 including
                                 $81,678,428 in recommendations that funds be put to better use and
                                 $37,586,816 in questioned costs. Due to GSA’s mission of negotiating
                                 contracts for governmentwide supplies and services, most of the savings
                                 from recommendations that funds be put to better use would be applicable
                                 to other Federal agencies.

                                 Management Decisions on Audit Reports
                                 Table 1 summarizes the status of the universe of audits requiring
                                 management decisions during this period, as well as the status of those
                                 audits as of September 30, 2004. There were no reports more than
                                 six months old awaiting management decisions as of September 30, 2004.
                                 Table 1 does not include 2 reports issued to other agencies this period.
                                 Table 1 also does not include 6 reports excluded from the management
                                 decision process because they pertain to ongoing investigations.


                     Table 1. Management Decisions on OIG Audits
                                                                     Reports with        Total
                                                     No. of            Financial       Financial
                                                    Reports        Recommendations Recommendations

    For which no management decision
    had been made as of 4/1/04
      Less than six months old                         49                  30              $302,986,266
      Six or more months old                            1                   0                         0
    Reports issued this period                         67                  37               119,209,421
    TOTAL                                             117                  67              $422,195,687
    For which a management decision
    was made during the reporting period
      Issued prior periods                             50                  30              $302,986,266
      Issued current period                            28                  10                37,987,189
    TOTAL                                              78                  40              $340,973,455
    For which no management decision
    had been made as of 9/30/04
      Less than six months old                         39                  27              $ 81,222,232
      Six or more months old                            0                   0                         0
    TOTAL                                              39                  27              $ 81,222,232




34 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments



                          Management Decisions on Audit Reports with
                          Financial Recommendations
                          Tables 2 and 3 present the audits identified in Table 1 as containing financial
                          recommendations by category (funds to be put to better use or questioned
                          costs).




           Table 2. Management Decisions on OIG Audits with
           Recommendations that Funds be Put to Better Use

                                                     No. of                       Financial
                                                    Reports                   Recommendations

For which no management decision had
been made as of 4/1/04
  Less than six months old                             25                      $302,618,069
  Six or more months old                                0                                 0
Reports issued this period                             28                        81,622,605
TOTAL                                                  53                      $384,240,674

For which a management decision was
made during the reporting period
TOTAL                                                  28                     *$303,384,627

For which no management decision had
been made as of 9/30/04
  Less than six months old                             25                      $ 80,856,047
  Six or more months old                                0                                 0
TOTAL                                                  25                      $ 80,856,047

*Management agreed with all except $227,454.




                                                                          Office of Inspector General 35
                   Statistical Summary of OIG Accomplishments




                     Table 3. Management Decisions on OIG Audits
                                with Questioned Costs

                                                           No. of                       Questioned
                                                          Reports                         Costs

         For which no management decision
         had been made as of 4/1/04
           Less than six months old                            5                    $   368,197
           Six or more months old                              0                              0
         Reports issued this period                            9                     37,586,816
         TOTAL                                                14                    $37,955,013

         For which a management decision
         was made during the reporting
         period
         TOTAL                                                12                   *$39,563,909

         For which no management decision
         had been made as of 9/30/04
           Less than six months old                            2                    $    366,185
           Six or more months old                              0                               0
         TOTAL                                                 2                    $    366,185

         *Management did not agree with $2,018,647 of questioned costs on four reports but did seek
         $1,975,081 in excess of the recommended amount on one other report.




36 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments



                      Investigative Workload
                      The OIG opened 143 investigative cases and closed 108 cases during this
                      period. In addition, the OIG received and evaluated 41 complaints and
                      allegations from sources other than the Hotline that involved GSA
                      employees and programs. Based upon our analyses of these complaints
                      and allegations, OIG investigations were not warranted.

                      Referrals
                      The OIG makes criminal referrals to the Department of Justice or other
                      authorities for prosecutive consideration and civil referrals to the Civil
                      Division of the Department of Justice or U.S. Attorneys for litigative
                      consideration. The OIG also makes administrative referrals to GSA officials
                      on certain cases disclosing wrongdoing on the part of GSA employees,
                      contractors, or private individuals doing business with the government.



                   Table 4. Summary of OIG Referrals

Type of Referral                        Cases                               Subjects
Criminal                                  47                                   120
Civil                                     13                                    25
Administrative                            67                                  193
TOTAL                                    127                                  338


                      In addition, the OIG made 29 referrals to GSA officials for information
                      purposes only.

                      Actions on OIG Referrals
                      Based on these and prior referrals, 37 cases (76 subjects) were accepted
                      for criminal prosecution and 12 cases (23 subjects) were accepted for civil
                      litigation. Criminal cases originating from OIG referrals resulted in
                      22 indictments/informations and 20 successful prosecutions. OIG civil
                      referrals resulted in 7 case settlements. Based on OIG administrative
                      referrals, management debarred 23 contractors/individuals, suspended
                      48 contractors/individuals, and took 13 personnel actions against
                      employees.




                                                                     Office of Inspector General 37
                   Statistical Summary of OIG Accomplishments



                                   Monetary Results
                                   Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                   and restitutions payable to the U.S. Government as a result of criminal and
                                   civil actions arising from OIG referrals.


                          Table 5. Criminal and Civil Recoveries
                                                       Criminal                       Civil

          Fines and Penalties                         $ 131,285                  $        —

          Settlements and Judgments                            —                  38,580,880

          Restitutions                                   920,037                          —

          TOTAL                                       $1,051,322                $38,580,880



                                   Table 6 presents the amount of administrative recoveries, recovered
                                   property, and savings as a result of investigative activities.


                                  Table 6. Other Monetary Results
          Administrative Recoveries                     $509,774

          Recovered Property                              48,195

          Investigative Savings                           22,563

          TOTAL                                         $580,532




38 Semiannual Report to the Congress
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,         adopting additional best practices, such as greater
the GSA Office of the Chief Financial Officer, Office of    oversight of projects and using peer reviews; and
the Controller, is responsible for tracking the             emphasizing more diligent project administration.
implementation of audit recommendations after a             They are scheduled for completion on January 15,
management decision has been reached. That office           2005.
furnished the following status information.
                                                            FSS Acquisition Workforce
Seventeen audits highlighted in prior reports to the        Qualifications
Congress have not yet been fully implemented; all are       Period First Reported: October 1, 2003 to March 31, 2004
being implemented in accordance with currently
established milestones.                                     The review addressed whether FSS was ensuring that
                                                            its acquisition personnel comply with the qualification
The Portfolio Restructuring Initiative                      standards established by the Office of Federal
Period First Reported: October 1, 2003 to March 31, 2004    Procurement Policy (OFPP). The report contained four
                                                            recommendations; three have been implemented.
The review evaluated PBS’ portfolio restructuring initia-
tive. The report contained three recommendations;           The remaining recommendation involves creating and
one has been implemented.                                   implementing quality control procedures for inputting
                                                            and maintaining data within the system and
The remaining recommendations involve maximizing            establishing and ensuring that the system tracks all
revenue by pricing to reflect the underlying demand         OFPP workforce qualifications. It is scheduled for
and considering suggestions for direction and refine-       completion on December 15, 2004.
ment of the restructuring initiative. They are scheduled
for completion on October 15, 2005.                         Improper Contracting Practices
                                                            Period First Reported: October 1, 2003 to March 31, 2004
Oversight of Leases                                         The review focused on improper contracting practices
Period First Reported: October 1, 2003 to March 31, 2004    at FTS Client Support Centers (CSC). The report con-
The review examined PBS’ management and adminis-            tained three recommendations; one has been imple-
tration of leases in several regions.    The report         mented.
contained three recommendations; they have not been
implemented.                                                The remaining recommendations involve performing a
                                                            detailed analysis of the factors contributing to the prob-
The recommendations involve proactively managing            lems and determining what changes are needed to
leases, reducing the risk of injury in PBS leased           align policies and procedures with laws, regu-
space, and strengthening the accuracy and sufficiency       lations, and GSA’s values. They are scheduled for
of lease information. They are scheduled for comple-        completion between November 15, 2004 and
tion between November 15, 2004 and December 15,             December 15, 2004.
2004.
                                                            System Review of the FTS’ Third
Audit of PBS’ New Construction                              Generation System (3GS)
Program                                                     Period First Reported: October 1, 2003 to March 31, 2004
Period First Reported: October 1, 2003 to March 31, 2004
                                                            The review examined FTS’ new Third Generation
The review assessed seven construction projects in          System (3GS). The report contained four recommen-
various stages of completion. The report contained          dations; three have been implemented.
three recommendations; they have not been imple-
mented.                                                     The remaining recommendation involves developing
                                                            measurable performance goals to monitor actual per-
The recommendations involve developing and issuing          formance compared to expected results for 3GS. The
a project management handbook for construction;             recommendation is currently being suspended.
                                                                                         Office of Inspector General 41
                    Appendix I–Significant Audits from Prior Reports




Review of GSA’s Process for                                  contained six recommendations; three have been
Establishing Lodging Per Diems                               implemented.
Period First Reported: October 1, 2003 to March 31, 2004
                                                             The remaining recommendations involve ensuring that
The review examined the process for establishing             all identified weaknesses are included and tracked in
lodging per diem rates. The report contained two rec-        the POA&M and prioritizing the development of key
ommendations; one has been implemented.                      security documentation. They are scheduled for com-
                                                             pletion on November 15, 2004. The third recommenda-
The remaining recommendation involves documenting            tion, which involves developing ISAs, MOUs, and SIIPs
the reason for any modification or dismissal of any of       for FSS-19 external connections, is currently being sus-
the Advisory Board’s recommendations. It is scheduled        pended. The Audit Followup and Evaluation Division is
for completion on October 15, 2005.                          awaiting a response from FSS.

GSA.gov                                                      Qualification Standards for
Period First Reported: October 1, 2003 to March 31, 2004     Acquisition Personnel
                                                             Period First Reported: April 1, 2003 to September 30, 2003
The review evaluated the redesigned GSA.gov Web
portal. The report contained two recommendations;            The review assessed whether FTS’ acquisition person-
one has been implemented.                                    nel were meeting qualification standards. The report
                                                             contained three recommendations; two have been
The remaining recommendation involves developing             implemented.
and implementing direction and guidance for all GSA
Offices consistent with best practices on their Web          The remaining recommendation involves discussing
pages. It is scheduled for completion on Decem-              issues and addressing deviations from qualification
ber 15, 2004.                                                standards and training requirements. It is currently
                                                             being suspended.
Control Reviews
Period First Reported: April 1, 2003 to September 30, 2003   Consolidation of Distribution Centers
                                                             Period First Reported: October 1, 2002 to March 31, 2003
A series of three control reviews covered a secured
item inventory, vehicle maintenance and repair costs,        The review examined the operations of the FSS Stock
and construction project funding limitations. The            Program. The report contained two recommendations;
reports contained eight recommendations; six have            one has been implemented.
been implemented.
                                                             The remaining recommendation, which requires
The remaining recommendations involve ensuring the           developing access to reliable data for all delivery meth-
judgment fund is not used to fund change orders and          ods, is scheduled for completion on June 15, 2005.
ensuring consistent FMS data entry procedures. They
are scheduled for completion between November 15,            Billing and Payment Systems
2004 and December 15, 2004.                                  Period First Reported: April 1, 2002 to September 30, 2002

FSS Automated Supply System                                  The review examined controls over reimbursable work
(FSS-19) and Online System                                   authorizations (RWA) billings between GSA and other
Capabilities                                                 Federal agencies.       The report contained two
                                                             recommendations; one has been implemented.
Period First Reported: April 1, 2003 to September 30, 2003
The review evaluated the FSS automated supply                The remaining recommendation involves incorporating
system and online system capabilities. The report            estimated cost data for planning workflow before and



42 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




during the RWA process. It is scheduled for comple-          The remaining recommendations involve establishing
tion on November 15, 2004.                                   and supporting the OA and tracking the variance
                                                             between OA projected rent and the actual billed rent.
Securing GSA’s E-Mail System
                                                             They are scheduled for completion on November 15,
Period First Reported: April 1, 2002 to September 30, 2002
                                                             2004.
The review examined GSA’s electronic mail system
security. The report contained six recommendations;          Operating Equipment Inventories
five have been implemented.
                                                             Period First Reported: October 1, 2000 to March 31, 2001
The remaining recommendation involves requiring
                                                             The review focused on equipment maintenance
password aging. It is scheduled for completion on
November 15, 2004.                                           kept by contractors. The report contained two recom-
                                                             mendations; one has been implemented.
Use of the Occupancy Agreement
Period First Reported: October 1, 2001 to March 31, 2002     The remaining recommendation involves identifying the
The review examined rent billing records covered             responsibility for maintenance programs to
by Occupancy Agreements (OA). The report contained           contractors.   It is scheduled for completion on
six recommendations; four have been implemented.             December 15, 2004.




                                                                                          Office of Inspector General 43
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                     Recommendations
                                                                                 Funds to        Questioned
Date of        Audit                                                            Be Put to      (Unsupported)
Report         Number                     Title                                 Better Use         Costs



(Note: Because some audits pertain to contract award or actions that
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)

PBS Internal Audits
06/07/04        A040017         Audit of the New Brooklyn Courthouse

07/21/04        A020236         Audit of Lease Acquisition Controls and
                                Compliance for the Greater Southwest
                                Region Public Buildings Service

09/30/04        A040106         Alert Report on the Audit of Pegasys
                                Account Balance and Transaction
                                Analysis: Construction in Progress

PBS Contract Audits
04/22/04        A040157         Preaward Audit of Architect/Engineering
                                Proposal:       Ross Drulis Cusenbery
                                Architecture, Inc., Solicitation Number GS-
                                10P-04-LTC-0009

04/29/04        A040158         Attestation Review of Architect and
                                Engineering Services Contract: Design
                                Management Associates, Inc., Contract
                                Number GS11P02ZGD0148

06/03/04        A040091         Audit of Claim for Increased Costs:
                                Industrial First, Inc., Subcontractor to
                                Hirschfeld Steel Co., Inc., Contract Number
                                GS-05P-97-GBC-0011

06/08/04        A040165         Audit of Claim for Increased Costs:
                                Industrial First, Inc., Subcontractor to Ajay
                                Glass & Mirror Co., Inc., Contract Number
                                GS-05P-97-GBC-0011

06/09/04        A040095         Preaward Audit of a Termination
                                Settlement Proposal:      M.L. Benjamin
                                Enterprises, Inc., Contract Number GS-
                                02P-00P-VC-0024

06/15/04        A040095         Audit of Final Contract Payment: M.L.                            $18,027
                                Benjamin Enterprises, Inc.,   Contract
                                Number GS-02P-00P-VC-0024

44 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number             Title                                Better Use         Costs



06/23/04   A040160   Attestation Engagement Review of
                     Cafeteria Concession Contract: Corporate
                     Chefs, Inc., Contract Number GS-02P-90-
                     CTC-0115

06/25/04   A040112   Review of Claim for Increased Costs: Ajay
                     Glass & Mirror Co., Inc., Subcontractor to
                     Dick Corporation, Contract Number GS-
                     05P-97-GBC-0011

07/01/04   A040143   Review of Claim for Increased Costs:
                     SimplexGrinnell, LP, Contract Number GS-
                     05P-99-GBC-0015

07/12/04   A040125   Attestation Engagement Review of A/E
                     Services Contract: Cannon Design, Inc.,
                     Solicitation Number GS-02P-03-DTC-0003

07/15/04   A040053   Attestation Engagement Review of
                     Supplemental Construction Management
                     Services Contract: Jacobs Facilities Inc.,
                     Solicitation Number GS-02P-03-DTD-
                     0030(N)

07/22/04   A040194   Preaward Review of Architect and
                     Engineering Services Contract: Hellmuth,
                     Obata and Kassabaum, PC, Solicitation
                     Number GS11P04MKC0022

07/23/04   A040196   Preaward Review of Architect and
                     Engineering Services Contract: Systech
                     Group, Inc.—Security Solicitation Number
                     GS11P03MKC0004

07/23/04   A040197   Preaward Review of Architect and
                     Engineering Services Contract: Systech
                     Group, Inc., Fire Protection & Life Safety,
                     Solicitation Number GS11P03MKC0004

07/23/04   A040201   Preaward Review of Architect and
                     Engineering Services Contract: Rhodeside
                     and Harwell, Inc., Solicitation Number
                     GS11P03MKC0004




                                                                        Office of Inspector General 45
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



07/28/04       A040209         Attestation Review of Supplemental
                               Architect and Engineering Services
                               Contract: The Kubala Washatko Architects,
                               Inc., Solicitation Number GS-05P-04-GAD-
                               0021

07/30/04       A040210         Attestation Review of Supplemental
                               Architect and Engineering Services
                               Contract: Collaborative Design Group, Inc.,
                               Solicitation Number GS-05P-04-GAD-0021

08/03/04       A040200         Preaward Review of Architect and
                               Engineering Services Contract: Project
                               Management Services, Inc., Solicitation
                               Number GS11P03MKC0004

08/03/04       A040199         Preaward Review of Architect and
                               Engineering Services Contract: Thornton
                               Tomasetti Cutts, LLC, Solicitation Number
                               GS11P03MKC0004

08/05/04       A040198         Preaward Review of Architect and
                               Engineering Services Contract:   URS
                               Corporation,   Solicitation    Number
                               GS11P03MKC0004

08/25/04       A040234         Preaward Attestation Engagement Review
                               of Architect Engineering Services Contract:
                               Oak Point Associates, Contract Number
                               GS-01P-04-NLD-0044

08/31/04       A030158         Preaward Audit of a Claim: ADF Steel
                               Corp., Subcontractor to J.A. Jones
                               Construction Group, LLC, Contract Number
                               GS-02P-99-DTC-0006(N)

09/10/04       A040233         Preaward Attestation Engagement Review
                               of Architect Engineering Services Contract:
                               Bargmann Hendrie + Archetype, Inc.,
                               Contract Number GS-01P-04-NLD-0044

09/21/04       A040236         Attestation Review of Architect and
                               Engineering Design Services Contract:
                               Richard Fleischman Architects, Inc.,
                               Contract Number GS-05P-03-GBC-0096


46 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number              Title                                Better Use         Costs



FSS Internal Audits
09/23/04   A040153    Audit of Management Controls Over GSA
                      Fleet Vehicle Disposal Sales Proceeds

09/27/04   A020204    Review of Federal Supply Service’s Special
                      Order Program in the Heartland Region

09/28/04   A040114    Audit of GSA Fleet’s Accident Management
                      Center Operations

09/29/04   A040050    Review of the Western Distribution Center
                      Relocation Project, Federal Supply Service

FSS Contract Audits
04/08/04   A040133    Postaward Attestation Engagement Review
                      of Multiple Award Schedule Contract:
                      Wright Line, LLC, Contract Number GS-
                      29F-0100G

04/12/04   A040124    Preaward Attestation Engagement Review
                      of Multiple Award Schedule Contract
                      Extension:        Science     Applications
                      International Corporation, Contract Number
                      GS-07F-0210J

04/16/04   A000928    Review of Multiple Award Schedule                            $3,200,000
                      Contracts: Polaroid Corporation, Contract
                      Numbers GS-00F-4457A and GS-25F-
                      6073D

04/20/04   A040146    Attestation Review of Multiple Award
                      Schedule Contract:   National Opinion
                      Research Center, Contract Number GS-
                      10F-0033M

04/21/04   A040171    Limited Postaward Attestation Engagement                         $33,399
                      Review of Multiple Award Schedule
                      Contract: Thomasville Furniture Industries,
                      Inc., Contract Number GS-27F-00131

04/22/04   A040084    Preaward Audit of Multiple Award Schedule
                      Contract: Flir Systems, Inc., Contract
                      Number GS-03F-5051C



                                                                         Office of Inspector General 47
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                   Title                               Better Use         Costs



04/30/04       A040145         Preaward Attestation Engagement Review
                               of Multiple Award Schedule Contract
                               Extension:        L-3   Communications
                               Corporation, Contract Number GS-03F-
                               5087C

05/12/04       A040090         Attestation Engagement Review of Billings                     $61,096
                               Under Multiple Award Schedule: Xerox
                               Corporation, Contract Number GS-15F-
                               9537C for the Period March 17, 1999
                               Through November 30, 2003

06/04/04       A040168         Preaward Attestation Engagement Review
                               of Multiple Award Schedule Contract:
                               Guardian Marine International, LLC,
                               Solicitation Number 7FCI-L3-03-0084-B

06/14/04       A040115         Preaward Review of Multiple Award
                               Schedule Contract:       EG&G Technical
                               Services, Inc., Contract Number GS-23F-
                               0108J

06/17/04       A030115         Postaward Audit of Multiple Award
                               Schedule Contract: Science Applications
                               International Corporation, Contract Number
                               GS-35F-4461G

06/21/04       A020220         Interim Postaward Review of Multiple                        $486,174
                               Award Schedule Contract: Kipper Tool
                               Company, Contract Number GS-06F-0018L

06/21/04       A040154         Attestation Review of Multiple Award
                               Schedule Contract: CDW Government,
                               Inc., Contract Number GS-35F-0195J

06/28/04       A040085         Limited Scope Postaward Audit of Multiple                   $348,158
                               Award Schedule Contract:        Onboard
                               Software, Inc., Contract Number GS-35F-
                               0117J

06/30/04       A040135         Preaward Review of Multiple Award
                               Schedule Contract Extension: Softmart
                               Incorporated, Contract Number GS-35F-
                               0345J



48 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs



06/30/04   A040116   Preaward Review of Multiple Award
                     Schedule Contract Extension: Booz Allen
                     Hamilton Inc., Contract Number GS-35F-
                     0306J

07/12/04   A040177   Preaward Attestation Engagement Review
                     of Multiple Award Schedule Contract
                     Extension:        Dynamics   Research
                     Corporation, Contract Number GS-23F-
                     0040K

07/29/04   A030180   Preaward Review of Multiple Award
                     Schedule Contract:    Harris Technical
                     Services Corporation, Contract Number
                     GS-35F-5202H

08/13/04   A040166   Preaward Review of Multiple Award
                     Schedule Contract:          GovConnection,
                     Incorporated, Solicitation Number FCIS-JB-
                     980001B

08/30/04   A010267   Postaward Audit of Multiple Award                           $5,566,645
                     Schedule Contract:  Snap-on Tools
                     Company, Contract Number GS-20F-
                     1458G

08/30/04   A020261   Interim Postaward Audit of Multiple Award                   $6,439,898
                     Schedule Contract:       Snap-on Tools
                     Company, Contract Number GS-06F-0006L

08/31/04   A040185   Preaward Review of Multiple Award
                     Schedule Contract: Rohde & Schwarz,
                     Inc., Solicitation Number 7FCM-U5-04-
                     6601-B

09/15/04   A040214   Preaward Attestation Engagement Review
                     of Multiple Award Schedule Contract:
                     Symmetricom, Incorporated, Solicitation
                     Number 7FCM-U5-04-6601-B

09/21/04   A040219   Preaward Attestation Engagement Review
                     of Multiple Award Schedule Contract
                     Extension: Stertile-Koni, Inc., Contract
                     Number GS-07F-0336J



                                                                       Office of Inspector General 49
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                   Title                              Better Use         Costs



09/22/04       A040184         Preaward Review of Multiple Award
                               Schedule Contract Extension: Olympus
                               Industrial America, Inc., Contract Number
                               GS-24F-1275C

09/24/04       A040141         Preaward Attestation Engagement Review
                               of Multiple Award Schedule Contract
                               Extension: Unisys Corporation, Contract
                               Number GS-35F-0343J

FTS Internal Audits
08/26/04       A040183         Review of the Federal Technology
                               Service’s Internal Controls Over the
                               Federal   Systems    Integration and
                               Management Center

FTS Contract Audits
05/25/04       A030214         Interim Postaward Audit of Presubscribed                    $21,433,419
                               Interexchange Carrier Charges: MCI, Inc.,
                               Contract Number GS00T99NRD2002

Other Internal Audits
04/05/04       A030188         Review of the Agency Liaison Division

04/27/04       A030129         Review of the Federal Asset Sales E-Gov
                               Initiative

08/05/04       A020245         Review of FedBizOpps

09/21/04       A040099         Review of GSA’s Awards Program

09/27/04       A040103         Review of Payroll Internal Controls - FY
                               2004

09/27/04       A040179         FY 2004 Office of Inspector General
                               Review of GSA’s Information Technology
                               Security Program

09/30/04       A040039         Review of Federal Technology Service E-
                               Authentication Initiative

09/30/04       A030197         Audit of GSA’s Wireless Telecommuni-
                               cations Services


50 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs




Non-GSA Internal Audits
09/30/04   A040103   Report   on    Applying     Agreed-Upon
                     Procedures Re: Payroll

Non-GSA Contract Audits
08/18/04   A040204   Preaward Attestation Engagement Review
                     of Cost or Pricing Data: Shell Oil Company




                                                                       Office of Inspector General 51
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed



Date of        Audit
Report         Number                                           Title


Contract Audits
03/21/97        A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                                GS-02P-94-CUC-0033(N)

06/27/97        A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                                International, Inc., Contract Number GS06P94GYC0037

07/11/97        A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                                Number GS06P94GYC0037

07/22/97        A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                                Subcontractor to Morse Diesel International, Inc., Contract Number
                                GS06P94GYC0037

07/31/97        A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                                Number GS06P94GYC0037

08/05/97        A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                                Severely Disabled, Agreement Number GS-02F-61511

11/26/97        A22536          Postaward Audit of Multiple Award Schedule Contract:            Ingres Corporation,
                                Contract Number GS00K89AGS5589

11/26/97        A32476          Limited Audit of Government Billings:       Ingres Corporation, Contract Number
                                GS00K89AGS5589

02/05/98        A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                                Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                                CUC-0070(N)

03/19/98        A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                                Contract Number GS-07P-92-HUC-0017

05/27/98        A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                Contract Number GS-00F-07010

06/17/98        A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                Contract Number GS-09P-95-KTC-0010



52 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


09/04/98   A990302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                     Systems, Contract Number GS-00F-76574

09/22/98   A80931    Preaward Review of Multiple Award Schedule Contract For The Extension Period
                     April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                     Contract Number GS-35F-5169H

09/24/98   A82456    Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                     Contract Number GS-07P-95-HUC-0068

10/13/98   A80636    Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                     Number GS-02P-96-DTC-0033

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99   A995128   Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                     Morse Diesel International, Inc., Contract Number GS06P95GZC0501

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                     1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                     Number GS-26F-1018B

06/15/99   A42113    Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                     Contract Number GS-00F-07000

06/22/99   A995164   Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                     Corporation, Extension to Contract Number GS-35F-4544G

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)

09/15/99   A52534    Postaward Audit of Multiple Award Schedule Contract:      Intermec Corporation,
                     Contract Number GS00K91AGS5288

09/15/99   A52565    Postaward Audit of Multiple Award Schedule Contract:      Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS01)

09/15/99   A52566    Postaward Audit of Multiple Award Schedule Contract:      Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS02)

10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)



                                                                          Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

11/30/99        A995289         Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                                Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                                Number GS-02P-93-CUC-0062

12/08/99        A995330         Preaward Audit of Multiple Award Schedule Contract: Caswell International
                                Corporation, Contract Number GS-02F-0434D

01/11/00        A000819         Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                                Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                                93-CUC-0062

02/17/00        A000923         Preaward Audit of Multiple Award Schedule Contract: Shamrock Scientific
                                Specialty Systems, Inc., Contract Number GS-14F-9732C

03/02/00        A000934         Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                                Inc., Contract Number GS-14F-0150D

03/06/00        A000963         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                                96-DTC-0033

03/09/00        A000911         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                                Contract Number GS-14F-9734C

03/10/00        A000936         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc., Contract
                                Number GS-14F-0177D

03/29/00        A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                                March 8, 1991 Through February 29, 1996

03/29/00        A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                                Period March 1, 1996 Through April 30, 1998

04/25/00        A000975         Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                                Contract Number GS-14F-0193D


54 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


05/11/00   A000993   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

06/01/00   A000971   Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                     Triangle Project

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/31/00   A001044   Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

12/13/00   A010047   Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract Number
                     GS-04P-96-EXC-0033

01/10/01   A001092   Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                     Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                     Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                     0322J

01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.




                                                                           Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


05/11/01        A010128         Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                                J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01        A010160         Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                                Number 2PCB-CM-010174

05/30/01        A010175         Preaward Audit of Cost or Pricing Data: Caswell International Corporation, Contract
                                Number GS-02F-0434D

05/31/01        A010118         Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                                Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                                98-KTC-0020

07/31/01        A001055         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01        A010222         Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                                Solicitation Number GS-09P-00-KTC-0088

09/17/01        A010221         Preaward Audit of Multiple Award Schedule Contract: Konica Business
                                Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01        A010253         Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                                Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                                April 30, 2005

10/18/01        A63630          Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                March 31, 1996

10/19/01        A010215         Preaward Audit of a Claim for Increased Costs: Century Steel, Inc., Subcontractor
                                to J.A. Jones Construction Company, Lloyd D. George U.S. Courthouse, Las
                                Vegas, Nevada, Contract Number GS-09P-97-KTC-0014

10/31/01        A010265         Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                                Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

11/08/01        A010214         Preaward Audit of a Claim for Increased Costs: Strocal, Inc., Subcontractor to J.A.
                                Jones Construction Company, Lloyd D. George U.S. Courthouse, Las Vegas,
                                Nevada, Contract Number GS-09P-97-KTC-0014

11/29/01        A010011         Limited Scope Postaward Audit: MasterCard International’s Compliance with Fuel
                                Tax Requirements under GSA’s SmartPay Contract

12/18/01        A001123         Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                                Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                                April 30, 1991


56 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


01/11/02   A010281   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/17/02   A010247   Preaward Audit of Multiple Award Schedule Contract: Cummings-Allison
                     Corporation, Solicitation Number FCGE-C1-00-0001-B

01/17/02   A010247   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Cummings-
                     Allison Corporation, Contract Number GS-25F-5126C

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

02/26/02   A010220   Preaward Audit of a Claim for Increased Costs: J.A. Jones Construction Company,
                     Inc., Lloyd D. George U.S. Courthouse, Las Vegas, Nevada, Contract Number GS-
                     09P-97-KTC-0014

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

04/11/02   A60648    Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                     Numbers GS-00F-3918A & GS-00F-3919A

04/18/02   A010248   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02   A010262   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02   A020101   Preaward Audit of a Claim, Additional Change Items: Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

05/16/02   A020115   Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                     Contract Number GS-11P-99-MAC-0006

05/17/02   A020125   Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                     02P-98-DTC-0056N

05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N

05/29/02   A020109   Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032


                                                                            Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


06/06/02        A020132         Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                                97-GBC-0011

06/06/02        A020141         Audit of Claim for Increased Costs: The Albert M. Higley Co., Subcontractor to Dick
                                Corporation, Contract Number GS-05P-97-GBC-0011

06/06/02        A020142         Audit of Claim for Increased Costs: Mohawk Re-Bar Services, Inc., Subcontractor
                                to Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/07/02        A020173         Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                                P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02        A020201         Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L

10/02/02        A020200         Audit of Termination Claim: Herman B. Taylor Construction Company, Contract
                                Number GS-07P-92-HUC-017

11/14/02        A020223         Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                                GS-09P-95-KTC-0032


58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


11/22/02   A020224   Preaward Audit of a Claim for Increased Costs: Commonwealth Electric Company,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

12/19/02   A020249   Preaward Audit of Cost or Pricing Data: HLW International, LLP, Contract Number
                     GS-02P-93-CUC-0062

12/23/02   A020176   Preaward Audit of a Claim for Increased Costs: Vetro, Inc., Contract Number GS-
                     09P-97-KTC-0008

01/03/03   A020242   Preaward Audit of Cost and Pricing Data: Stronghold Engineering, Inc., Solicitation
                     Number GS-09P-02-KTC-0069

01/07/03   A020192   Preaward Audit of a Claim for Increased Costs: Swinerton Builders, Evo A.
                     Deconcini U.S. Courthouse & Federal Building, Tucson, Arizona, Contract Number
                     GS-09P-97-KTC-0008

01/15/03   A020250   Preaward Audit of Cost or Pricing Data: Gordon H. Smith Corporation, Consultant
                     to HLW International LLP, Contract Number GS-02P-93-CUC-0062

01/22/03   A020233   Preaward Audit of a Claim for Increased Costs: Sun Mechanical Contracting, Inc.,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                     05P-99-GBC-0012

02/06/03   A995169   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Viking
                     Acoustical Corporation, Contract Number GS-00F-5004A

02/07/03   A020238   Preaward Audit of a Claim for Increased Costs: Standard Drywall, Inc.,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

02/12/03   A030081   Preaward Audit of a Claim for Increased Costs: Hardrock Concrete Placement
                     Company, Inc., Subcontractor to Swinerton Builders, Evo A. Deconcini U.S.
                     Courthouse & Federal Building, Tucson, Arizona, Contract Number GS-09P-97-
                     KTC-0008

02/20/03   A020217   Preaward Audit of Sole Source Contract: NEEKO Construction, Inc., Solicitation
                     Number GS-11P-02-ZGC-0218 “NEG” 8(A)

03/14/03   A020197   Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

03/20/03   A020251   Audit of Claim for Increased Costs: The Cleveland Marble Mosaic Company,
                     Contract Number GS-05P-99-GBC-0043


                                                                            Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


03/21/03        A020133         Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                                Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03        A030140         Limited Scope Review of Termination Claim: Science Applications International
                                Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03        A030106         Preaward Audit of a Claim for Increased Costs: George Foss Company,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/06/03        A030142         Preaward Audit of Construction Management Services Contract: Gilbane Building
                                Company, Solicitation Number GS-02P-02-DTC-0031N

05/19/03        A030092         Preaward Audit of a Termination Settlement Proposal: L&H Construction Co., Inc.,
                                Contract Number GS-02P-99-DTC-0013

05/28/03        A030166         Audit of Claim for Increased Costs: Dawson Building Contractors, Inc., Contract
                                Number GS06P97GYC1007(N)

05/29/03        A020230         Preaward Audit of a Claim for Increased Costs: C.E. Toland & Son, Subcontractor
                                to Morse Diesel International, Inc., U.S. Courthouse & Federal Building,
                                Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03        A030088         Preaward Audit of a Termination Settlement Proposal: Imperial Construction
                                Group, Inc., Contract Number GS-02P-01-PCU-0036

06/02/03        A030138         Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                                Number GS-05P-96-GBC-0015

07/02/03        A030163         Preaward Audit of Multiple Award Schedule Contract Extension: Information
                                Network Systems, Inc., Contract Number GS-35F-5002H

07/15/03        A030192         Preaward Audit of Architect and Engineering Services Contract: Joseph R. Loring
                                & Associates, Inc., Solicitation Number GS-11P-03-MKC-0001

07/21/03        A030194         Preaward Audit of Architect and Engineering Services Contract: Beyer, Blinder,
                                Belle Architects & Planners, LLP, Solicitation Number GS-11P-03-MKC-0001

08/08/03        A030177         Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                                MYD-0015

08/15/03        A030222         Preaward Audit of Architect and Engineering Services Contract: The Lukmire
                                Partnership, Inc., Solicitation Number GS-11P-02-MAD-0177

08/28/03        A030187         Audit of Claim for Increased Costs: Cleveland Construction, Inc., Subcontractor to
                                The Clark Construction Group, Inc., Contract Number GS06P96GZC0508


60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


08/28/03   A030199   Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                     97-GBC-0011

09/11/03   A030210   Preaward Audit of Multiple Award Schedule Contract: Analytic Services, Inc.,
                     Contract Number GS-10F-0026J

09/17/03   A030226   Preaward Audit of Architect and Engineering Services Contract: MTFA Architecture,
                     Inc., Solicitation Number GS-11P-02-MAD-0177

09/23/03   A030236   Preaward Audit of Architect and Engineering Services Contract: Atkinson Koven
                     Feinberg Engineers, LLP, Consultant to Perkins Eastman Architects, PC,
                     Solicitation Number GS-02P-03-DTD-0008(N)

09/24/03   A030124   Interim Audit of Multiple Award Schedule Contract: GovConnection, Incorporated,
                     Contract Number GS-35F-4572G

09/29/03   A030152   Preaward Audit of a Claim: J.A. Jones Construction Group, LLC, Contract Number
                     GS-02P-99-DTC-0006

09/30/03   A030264   Preaward Audit of Cost and Pricing Data: Kelly’s Cleaning Services, Inc.,
                     Solicitation Number GS-02P-03-PIC-0028




                                                                           Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                               Projected Final
Report         Number                                         Title                                 Action Date


Internal Audits
07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year                 10/15/04
                                1998 Financial Statement Audit

03/27/01        A000968         Review of Operating Equipment Inventories: Public Buildings               12/15/04
                                Service, New England Region

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and                   10/15/05
                                Year-End Management Letters

10/17/01        A001122         Review of PBS Use of the Occupancy Agreement                              11/15/04

02/07/02        A010187         EDP Management Letter FY 2001 Financial Statement                         10/15/04
                                Audit

05/10/02        A010187         Audit of the General Services Administration’s Fiscal Years 2001          10/15/04
                                and 2000 Financial Statements

09/26/02        A020011         Audit of GSA’s Electronic Mail System Security                            10/15/04

09/30/02        A020056         Audit of Controls Over Reimbursable Work Authorizations Billing           10/15/04
                                Practices in the Greater Southwest Region

02/26/03        A020163         EDP Management Letter Fiscal Year 2002 Financial Statement                02/15/05
                                Audit

03/18/03        A020161         Audit of the Consolidation of Distribution Center Operations:             06/15/05
                                Impact on Shipment Costs & Delivery Times

03/18/03        A020163         Audit of the General Services Administration’s Fiscal Years 2002          10/15/04
                                and 2001 Financial Statements

06/05/03        A020214         Audit of Compliance with Qualification Standards for Acquisition       Suspended
                                Personnel Within the Federal Technology Service

07/03/03        A020247         Audit of the GSA Fleet National Maintenance Control                       12/15/04
                                Center

09/03/03        A020055         Audit of the Public Buildings Service’s Expenditures for the              11/15/04
                                Montgomery Courthouse Project in Relation to Congressionally
                                Approved Expenditures

09/30/03        A020253         Review of Federal Supply Service Automated Supply System                  11/15/04
                                FSS-19 and Online System Capabilities




62 Semiannual Report to the Congress
                                  Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                   cies. GSA received the final $25,000 payment from
                                                              Able Industries of the Pacific and wrote off the
Collection                                                    remaining $25,000 in delinquent bills. As a result,
During the period April 1, 2004 through September 30,         the amount of outstanding accounts receivable from
2004, the following activities were undertaken by GSA         NIB/NISH customers decreased from $2.6 million on
in an effort to improve debt collection and reduce the        February 29, 2004 to $2.4 million on September 2,
amount of debt written off as uncollectible.                  2004.
• From April 1, 2004 to September 30, 2004, the GSA
                                                            • As of September 30, 2004, the District of Columbia
  Finance Centers referred approximately $3.7 million
                                                              (DC) Government owed GSA $347,228 for 39 supply
  of delinquent non-Federal claims to the U.S.
                                                              bills over two years old. This is a decrease of
  Treasury Department (Treasury) for cross-servicing
                                                              approximately $382,210 from the amount owed as of
  collection activities. Collections on non-Federal
                                                              March 30, 2004. A spreadsheet of all outstanding
  claims exceeded $194.7 million. Administrative off-
                                                              supply bills is sent monthly to the DC Government’s
  sets have resulted in additional collections of $7.5
                                                              Inspector General (IG) and Chief Financial Officer
  million. GSA also collects non-Federal claims using
                                                              (CFO). These old bills were not being paid because
  Pre-Authorized Debits (PADs). From April 1, 2004
                                                              either GSA no longer had the supporting backup, or
  to September 30, 2004, 70 PADs totaling $83,876
  were processed.                                             the DC Government no longer has the funding. We
                                                              have not written these bills off because the DC
• To comply with the Debt Collection Improvement Act          Government CFO has agreed to request funding to
  of 1996, GSA transmits delinquent claims each               pay GSA for these bills. A significant amount of our
  month to the Treasury Financial Management                  non-Federal debt in the Information Technology (IT)
  Service (FMS) for collection cross-servicing.               Fund involves the DC Government and its many
                                                              offices. We are working diligently with the Federal
• Persistent claims coordination between regional             Technology Service (FTS) staff to reduce these
  contracting officers, Treasury, and our Finance             delinquencies and settle all disputed amounts so we
  Centers continues to strengthen our claims                  can effect collection. Since March 2004, we have
  collection efforts.                                         reduced the delinquent amount by $2.5 million.

• In accordance with OMB Circular A-129, we contin-         • One of GSA’s oldest claims, an excess cost claim in
  ue to eliminate non-paying debts aged over two              the amount of $129,842, established April 29, 1997,
  years from our accounts receivable subsidiaries. All        was closed out during this period. A joint investiga-
  two-year old claims without collection activity were        tion conducted by the GSA OIG and the US Army
  researched and either collected or written off.             CID at the direction of the U.S. Attorneys office
                                                              resulted in a civil recovery of $62,852.
• The Profit Recovery Group, through a contract
  arrangement with GSA, continues to actively review        • GSA also received authorization from the
  and pursue overpayments in conjunction with our             Department of Justice (DOJ) to write off the balance
  Accounts Payable Division associates.                       of a $526,503 claim against a company that signed
                                                              a promissory note in 1994 to settle an audit related
• GSA representatives held meetings with various              claim and subsequently filed chapter 11 bankruptcy.
  National Institute for the Blind/National Institute for     DOJ advised GSA to terminate all collection action.
  the Severely Handicapped (NIB/NISH) customers to
  discuss payment of GSA bills. The representatives         • GSA received $9.7 million from DOJ to settle an
  emphasized all GSA bills must be paid within                investigation into billing discrepancies on two GSA
  45 days, including those for items with discrepan-          Multiple Award Schedule contracts.


                                                                                       Office of Inspector General 63
                                   Appendix IV–Delinquent Debts




• During this period, a designated team of associates             their driver does not obtain necessary third party
  established to research and clear older payroll                 identification and address information and have
  claims continued their work to offset, bill, or write off       strong evidence the third party was at fault.
  old payroll claims. GSA transferred all active and
  former Federal Protective Service employee payroll          • Some GSA Federal Supply Service customers were
  claims to the Department of Homeland Security                 refusing to pay and/or slow to pay GSA bills because
  (DHS) during September 2004.                                  they could not match line items on GSA bills to their
                                                                own purchase order numbers and obligations. We
• GSA’s Fleet Director recently instituted a new Fleet          have now developed a way to capture a customer’s
  Vehicle Accident Center policy regarding third party          internal purchase order number and other tracking
  vehicle claims. By obtaining better information when          information and store it in GSA files.           This
  government drivers are involved in accidents, we              information is available to GSA billing technicians to
  hope to see fewer uncollectible claims against third          help customers identify obligations and funds within
  parties. Accident Center personnel have been                  their own accounting systems necessary to pay
  instructed to bill leasing agencies for accidents when        GSA.




Non-Federal Accounts Receivable

                                                      As of                  As of
                                                   April 1, 2004       September 30, 2004          Difference

   Total Amounts Due GSA                            $15,402,232            $12,205,959             -$3,196,273

   Amounts Delinquent                               $10,478,933            $ 7,729,531             -$2,749,402

   Total Amount Written
   Off as Uncollectible
   Between 4/1/04 and
   9/30/04                                           $2,205,478




64 Semiannual Report to the Congress
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29–31

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .44

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .63

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .52




                                                                                                                          Office of Inspector General 65
                             Appendix VI–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Daniel R. Levinson (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


  Office of Counsel to the Inspector General
  Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation
  Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


  Headquarters Regional Inspectors General for Auditing (RIGAs)
  Finance & Staff Offices Audit Office, RIGA Kristin R. Wilson (JA-F) . . . . . . . . . . . . . . . . . .(202) 501-0006

  Information Technology Audit Office, RIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . . .(703) 308-1223

  Acquisition Programs Audit Office, RIGA Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . .(703) 603-0189
  Real Property Audit Office, RIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


  Regional Inspectors General for Auditing (RIGAs)
  Washington Field Office, RIGA Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 708-5340

  New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

  Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, RIGA James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




66 Semiannual Report to the Congress
                         Appendix VI–OIG Offices and Key Officials



Regional Inspectors General for Auditing (RIGAs) continued
The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

  Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


Office of Investigations
Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . . .(202) 501-1397


Regional Inspectors General for Investigations (RIGIs)
Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . . .(215) 446-4830

New York Zone Office, RIGI Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

  Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . . .(617) 565-6820

Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

  Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . . .(816) 926-7214

Fort Worth Zone Office, RIGI Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

  Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

  Auburn Sub-Office, Special Agent Terry J. Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director James J. Matthews (JPH) . . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Edward G. VanBuren (JPM) . . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                   Office of Inspector General 67
                                       Notes




68 Semiannual Report to the Congress
Notes




        Office of Inspector General 69
                                       Notes




70 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
